OFFICE OF INSPECTOR GENERAL           United States Department of State
                                      and the Broadcasting Board of Governors
                                      Office of Inspector General




                              SEMIANNUAL REPORT
                              TO THE CONGRESS
                              October 1, 2010 to March 31, 2011
Inspector
General
Office of
   Summary of OIG Accomplishments

Financial Results
Questioned costs
  Issued during the reporting period                           $1,159,000
  Management decision during the reporting period             $11,813,000
Recommendations for funds to be put to better use
  Issued during the reporting period                             $620,000
  Management decision during the reporting period                $520,000
Investigative monetary recoveries                             $8,716,300



Investigative Results
Cases opened                                                          50
Cases closed                                                          42
Criminal actions                                                      59
Administrative actions                                                15
Hotline and complaint activity                                       810



Reports Issued:                                                        70




                    Cover photo: Embassy Doha, Qatar
         Photo provided by Office of Overseas Buildings Operations




       Requests for additional copies of this publication
                    should be addressed to:

                    Office of Inspector General
                    U.S. Department of State
                       OIG/EX, Room 810
                    1700 North Moore Street
                      Arlington, VA 22209


               Department of State Publication 11462
                    Office of Inspector General
                                    TABLE OF CONTENTS

MESSAGE FROM THE DEPUTY INSPECTOR GENERAL �������������������������������������������� 1
EXECUTIVE SUMMARY���������������������������������������������������������������������������������������������������� 3
CONGRESSIONAL AND MEDIA ACTIVITIES �������������������������������������������������������������11

DEPARTMENT OF STATE
MIDDLE EAST REGIONAL OFFICE������������������������������������������������������������������������������ 17
AUDITS ������������������������������������������������������������������������������������������������������������������������������ 23
INSPECTIONS�������������������������������������������������������������������������������������������������������������������� 29
INVESTIGATIONS������������������������������������������������������������������������������������������������������������ 49
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES���������������� 55
APPENDIX 2: REPORTS ISSUED ������������������������������������������������������������������������������������ 57
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES������������������ 61
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS�������������� 63
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS���������������������������������������� 75
APPENDIX 6: PEER REVIEWS CONDUCTED BY OTHER OFFICES
  OF INSPECTOR GENERAL���������������������������������������������������������������������������������������� 77

BROADCASTING BOARD OF GOVERNORS
AUDITS ������������������������������������������������������������������������������������������������������������������������������ 81
INSPECTIONS�������������������������������������������������������������������������������������������������������������������� 83
INVESTIGATIONS������������������������������������������������������������������������������������������������������������ 85
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS
  INVESTIGATIVE ACTIVITIES���������������������������������������������������������������������������������� 87
APPENDIX 2: BROADCASTING BOARD OF GOVERNORS REPORTS ISSUED���������� 89
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES������������������ 91
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS�������������� 93
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS���������������������������������������� 95
ABBREVIATIONS�������������������������������������������������������������������������������������������������������������� 97



                   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011                        ii
iii   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
MESSAGE FROM THE DEPUTY
INSPECTOR GENERAL

                                 I am pleased to present the Office of Inspector General
                                 (OIG) Semiannual Report to the Congress for the
                                 Department of State (Department) and the Broadcasting
                                 Board of Governors (BBG). This report covers the period
                                 ending March 31, 2011, as required by the Inspector
                                 General Act of 1978, as amended. 

                           Since arriving in OIG in June 2008, I have repeatedly told
                           OIG employees that we have the best jobs in the Federal
                           Government because we are paid to tell the truth. Our
 Deputy Inspector General, body of work, most of which is available to taxpayers on
      Harold W. Geisel     our Web site, is the true objective measure of our indepen-
                           dence and effectiveness. Over the last 3 years, there has
been a steady increase in requests from Congress and from Department and BBG
officials, asking OIG to review programs and situations around the world. They
know we are an independent oversight organization that will produce a timely, thor-
ough, and honest report, whether it is an audit, inspection, evaluation, or report of
investigation.

OIG greatly assists the entities we oversee by impartially telling them what they need
to know to do more effective work. A follow-up review of our inspection of Embassy
Baghdad confirmed that the Department had implemented one of the key recom-
mendations made to address the challenges of transitioning to a civilian mission
in Iraq: designating a coordinator for the critical and time-sensitive Iraq transi-
tion effort. On the audit front, OIG arranged an analysis of deficiencies in controls
identified during the 2009 financial statement audit and made recommendations
that helped the Department to improve controls over accounting for property and
budgetary resources, enabling the external auditor to issue an unqualified opinion on
the Department’s 2010 financial statements. We also anticipate positive results from
our review of duplicative and excessive mandated reporting requirements, which was
welcomed by overburdened posts and bureaus.

At the same time, the work completed this period clearly demonstrates that OIG is
an independent and responsive oversight organization. Recent inspections have iden-
tified serious management problems that have led to changes in mission leadership. A
series of investigations into Department employees engaged in illegal passport snoop-
ing has resulted, thus far, in 14 criminal convictions and more than 45 administrative


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   1
    personnel actions, including 17 terminations of employment. Additional investiga-
    tions realized more than $8.7 million in recoveries, while audits, inspections, and
    evaluations identified millions more in potential cost benefits.

    Our commitment as an independent oversight organization is to tell the Department
    and BBG what they need to hear, even when it isn’t always what they want to hear.




                                                          Harold W. Geisel
                                                          Deputy Inspector General




2               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
EXECUTIVE SUMMARY

The auditors, inspectors, investigators, and other professionals in OIG promote effec-
tive management, accountability, and positive change in the Department, BBG, and
the foreign affairs community. During this reporting period, OIG issued 70 reports
with recommendations to improve the Department and BBG programs and opera-
tions, and identified nearly $10 million in cost efficiencies—including questioned
costs, fines, and recoveries. A full list of reports issued during this period can be
found in Appendix 2 of each agency section of this report. This Semiannual Report
to the Congress summarizes work carried out by OIG during the period October 1,
2010, through March 31, 2011. OIG addresses classified issues, as appropriate, in the
Classified Annex to the Semiannual Report.




MIDDLE EAST REGIONAL OFFICE
An evaluation of the operations and maintenance support contract at Embassy Kabul
revealed weaknesses in the Department’s oversight of PAE, the contractor, because of the
contracting officer’s lack of on-site management, as well as gaps in coverage and a lack of
continuity in contracting officer’s representatives (COR). Recommendations were made
to strengthen the Department’s oversight, and to seek reimbursement from PAE of more
than $1.15 million for award fees, taxes paid by PAE to the Afghan Government, overpay-
ment for fuel, and escort services that PAE did not provide. OIG also recommended that
Embassy Kabul consider converting its electrical power system to the Kabul City Power
(KCP) public grid, which could result in potential cost savings.

OIG also found weaknesses in oversight of PAE by the Bureau of International
Narcotics and Law Enforcement Affairs (INL) at counternarcotics compounds in
Kabul and Kunduz, in addition to weaknesses in PAE’s fuel operations, food services,
security, and facility maintenance. For the Kabul compound, OIG recommended
the Department develop an acquisition plan, implement a quality assurance surveil-
lance plan, and assign a sufficient number of CORs. In Kunduz, OIG recommended
that INL resolve construction deficiencies, assess power needs, and ensure guards are
sufficiently rested and familiar with standard operating procedures. Both INL and
Embassy Kabul noted that action had been taken to resolve many of these issues.

In its evaluation of infrastructure construction projects for Palestinian Authority
security forces, OIG found that the Palestinian Authority and INL have success-
fully overseen and implemented these projects, which appeared to be generally of
good quality and on schedule. The Palestinian Authority has followed appropriate

            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   3
    processes to oversee contract awards and to monitor projects, and has been a major
    contributor to successful project approval and implementation. OIG recommended
    that INL develop detailed plans to complete and sustain the construction program
    and conduct a staffing analysis of the INL office in Jerusalem.

    In a limited-scope review at Embassy Dushanbe, Tajikistan, OIG found that an
    unqualified contractor, PIR-5, failed to design and construct a recreation center
    according to required building codes and guidelines. Embassy Dushanbe, the Bureau
    of Overseas Buildings Operations (OBO), and the Regional Procurement Support
    Office (RPSO) did not ensure PIR-5 submitted the required designs or resolved
    design issues. Rebuilding the unusable and unsafe recreation center will cost an addi-
    tional $1.5 million, nearly five times the original value of contract. OIG made several
    recommendations to improve the technical expertise and establish technical quali-
    fications for CORs, and to ensure full review and approval of contractor designs, as
    well as post management and quality assurance plans.

    OIG evaluated six contracts at missions in Kuwait, Oman, Saudi Arabia, and the United
    Arab Emirates (U.A.E.), and found no direct evidence that contractors violated regulations
    to prevent trafficking in persons (TIP). However, several contractors’ practices increased
    the risk of TIP. OIG recommended the embassies discuss passport retention regulations
    with contractors and monitor compliance with labor laws. In the future, contractors
    should provide workers with detailed housing descriptions, understandable contracts,
    and information on labor laws and the U.S. Government’s anti-TIP policy. Finally, OIG
    recommended that CORs receive guidance and training on TIP monitoring.

    As of April 2010, the Bureau of Population, Refugees and Migration (PRM) had
    donated $80.5 million to the United Nations High Commissioner for Refugees
    (UNHCR) and the International Committee of the Red Cross (ICRC) to assist 2.7
    million internally displaced persons (IDP) in northern Pakistan. In its evaluation, OIG
    found no evidence of assistance funds or material being diverted from either UNHCR
    or ICRC for illegitimate purposes. However, OIG could not determine the effective-
    ness of IDP assistance since neither UNHCR nor ICRC reports performance results
    against targets or indicators. OIG recommended that PRM encourage regular report-
    ing by UNHCR and ICRC on progress toward specific assistance targets, performance
    measurement plans, and funding and material needs. In addition, organizations work-
    ing under UNHCR should establish targets and indicators and report on performance.

    OIG found no direct evidence that contractors on 10 contracts at embassies in Israel,
    Jordan, Lebanon, and Syria, and the consulate general in Jerusalem violated the provisions
    of the Trafficking Victims Protection Act or the mandatory Federal Acquisition Regulation
    (FAR) clause 52.222-50 (Combating Trafficking in Persons). Management practices of 9
    of the 10 contractors showed no increased risk of TIP. One contractor who had engaged
    in practices that increased the risk of TIP was subsequently disqualified from issuing a
    new proposal. All five missions are following Federal contracting guidelines to prevent
    trafficking, and OIG found some specific examples of monitoring for TIP violations.

4               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
OFFICE OF AUDITS
OIG issued a report to the Department and to the Chairman of the House
Committee on Oversight and Government Reform regarding the December 25,
2009, terrorist bombing attempt of Northwest Airlines Flight 253. OIG found that
the Department took a number of corrective actions demonstrating significant prog-
ress in addressing deficiencies that contributed to the attempted bombing.

Although the Department has taken corrective actions that collectively represent
significant progress in addressing the failures that contributed to the attempted
bombing, additional measures are needed to improve management oversight proce-
dures in the Visas Viper cable process. OIG made recommendations to enhance
management oversight of the Visas Viper cable process.

In an audit of the Department’s financial statements, OIG found that financial manage-
ment continues to be a major challenge. OIG contracted with an independent external
auditor to audit the financial statements of the Department. Although the Department
took actions to address some internal control deficiencies noted during the audit of the
Department’s 2009 financial statements, the auditor reported significant deficiencies
related to accounting for property and equipment, financial reporting, accounts payable
accruals, budgetary accounting, and the information technology control structure.




OFFICE OF INSPECTIONS
OIG conducted 16 post management inspections with security reviews, 1 compli-
ance follow-up review with a security review, 2 domestic bureau inspections, and 8
program or requested reviews. In addition to identifying potential cost savings, these
reports focused on embassy and bureau leadership and operational improvements.
The inspections also documented 7 innovative practices as models for other embas-
sies to use to promote efficiency and effectiveness.

Occurring as Embassy Baghdad was preparing for the U.S. military’s full withdrawal
from Iraq, the Compliance Follow-up Review of Embassy Baghdad, Iraq, was timely for
OIG to ask some questions about this critical transition in the U.S. presence in Iraq.
OIG questioned the possibility of success for the U.S. temporary provincial presence
and the costs, security, and benefit of supporting mission personnel outside Baghdad.
In addition, OIG recommended establishing a high-level coordinator position, with a
full-time staff and Department backing, to oversee the detailed planning needed.

Two post management inspections resulted in OIG issuing Joint Issues in the
Inspections of Embassy Tel Aviv and Consulate General Jerusalem. Although relations
between Embassy Tel Aviv and Consulate General Jerusalem have improved, OIG

            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   5
    noted that both missions could achieve greater efficiency and realize significant
    savings by combining some administrative, financial, and communications services.
    OIG also recommended greater use of joint reporting cables to minimize parochial
    perspectives in reporting on Israeli-Palestinian issues.

    Other key post management inspections included the Embassy Bangkok and
    Embassy Athens. OIG noted that Embassy Bangkok was praised by Washington end-
    users on its reporting on internal political dynamics during the political and security
    crisis in Thailand in Spring 2010, and recommended more forward-looking analy-
    sis to help better prepare for dramatic changes occurring in Thailand. The Athens
    inspection report concluded that Consulate General Thessaloniki is not essential to
    achieving U.S. interest in Greece and recommended closing the consulate general.

    The Inspection of the Bureau of European and Eurasian Affairs noted that the foreign
    assistance to this region was effectively linked to foreign policy objectives. OIG recom-
    mended that the bureau conduct a top-to-bottom review of its organizational structure
    to improve efficiency. OIG also recommended that the bureau establish specific bench-
    marks in the resolution of Holocaust era-related issues that, when reached, would lead
    to the phasing out of the Office of the Special Envoy for Holocaust Issues and absorp-
    tion of its remaining elements into other Department offices.

    In addition to Response to Congressional Inquiry on Department Leadership’s Role in
    Freedom of Information Act Processes, OIG issued Inspection of Department–Required
    and Congressionally Mandated Reports: Assessment of Resource Implications, which
    determined that the Department did not have an authoritative, comprehensive list
    of required and mandated reports. Most Congressionally mandated reports were
    based on routine reporting, but five required significant additional resources from
    both Washington and the field. OIG recommended that the Department work with
    Congress to modify its “one size fits all” approach to reporting.

    The Review of the President’s Emergency Plan for AIDS Relief at Select Embassies
    Overseas was timely as the program integrates with the Global Health Initiative
    (GHI), transitioning from an emergency program to a more sustainable one. This
    challenge of transitioning to a sustainable program needs to be addressed over the
    medium term, perhaps before the current reauthorization expires in September 2013.
    OIG also highlighted continuing concerns about some of the issues from previous
    reports and focused on the need for interagency cooperation, importance of coordi-
    nators, proliferation of competing brands or logos for the program overseas, and the
    continued burden of required reporting.

    The Cyber Security Review of Embassy Ottawa, Canada, and Cyber Security Review of
    Embassy Kingston, Jamaica, are part of OIG’s increased focus on information manage-
    ment and security. These reports found that the embassies complied with the major-
    ity of security controls within the Federal cyber security regulations and guidelines.
    At each embassy, OIG identified some deficiencies and made recommendations to

6               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
address them. OIG also provided embassy personnel with copies of technical assess-
ment reports for their embassy.




OFFICE OF INVESTIGATIONS
OIG investigations this period covered a breadth of content, including contract
fraud, bribery and kickbacks, false statements, visa fraud, false claims, and employee
misconduct. OIG also conducted follow-up investigative work on widespread activity
related to the improper accessing of Passport Information Electronic Records System
(PIERS) records. OIG’s multiple investigations of illegal passport snooping have, thus
far, resulted in 14 criminal convictions, and more than 45 administrative personnel
actions, including 17 terminations of employment from the Department.



  OIG Investigation Recovers More Than $8 Million
  OIG conducted an investigation of a Department contractor and its subcon-
  tractor who grossly overcharged for work performed on a major Department
  contract. The original contract was awarded for more than $1.7 billion to recruit
  U.S. police officers, provide them with developmental training, and to equip
  them to participate in international peacekeeping operations, including in Iraq.
  The investigation determined that the contractor submitted inflated claims for
  the construction of container camps at various locations in Iraq, and sought
  reimbursement for danger pay that it falsely claimed to have paid its U.S. expatri-
  ate employees working in Iraq. On March 22, 2011, the contractor and subcon-
  tractor entered into separate civil settlements with the Department of Justice and
  agreed to repay the government a total of $8,710,000 in damages ($7,700,000 by
  the contractor and $1,010,000 by the subcontractor). (C2007-005)



OIG conducted a joint investigation, with the Special Inspector General for Iraq
Reconstruction and the Defense Criminal Investigative Service, of a Department
employee assigned to Iraq who solicited bribes and kickbacks from vendors in
exchange for the award of Department contracts. The investigation determined
that the employee accepted a large number of payments from a company that was
awarded a Department contract and that the contract was inflated in cost by the
amount received by the subject. The subject was arrested and agreed to plead guilty
in to one count of Wire Fraud Conspiracy, and to pay $106,800 in restitution.




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   7
    INTERNATIONAL BROADCASTING
    In its audits report on BBG’s financial statements, as of, and for the years ended,
    September 30, 2010, and 2009, an independent external auditor found that the state-
    ments present fairly, in all material respects, BBG’s financial position as of the dates
    cited and its net cost of operations, changes in net position, and changes in budgetary
    resources for the years then ended. However, an auditor found deficiencies in internal
    controls over the financial and accounting system, accounts payable, property, and
    unliquidated obligations that the auditor considered to be significant. Also, internal
    control weaknesses or instances of noncompliance with selected provisions of appli-
    cable laws and regulations were identified relating to government purchase cards,
    information security, Fund Balance With Treasury, accounts receivable, and Foreign
    Service national payroll. The auditor recommended that BBG take appropriate
    actions to address these weaknesses.

    In response to the Federal Information Security Management Act of 2001 (FISMA),
    an independent public accountant reviewed BBG’s Information Security Program and
    found that BBG had, since the FY2009 review, taken actions to improve the program’s
    management controls, including realigning its information technology (IT) department
    to improve accountability and communication among personnel, increasing performance
    of risk assessments and developing security plans for its major information systems,
    and developing a strategic plan to address needed improvements in its IT architecture.
    However, the independent public accountant recommended that BBG address control
    weaknesses in various areas to improve and bring the information security program into
    compliance with applicable requirements.

    OIG conducted four inspections for BBG: the International Broadcasting Bureau
    Sri Lanka transmitting station, the Broadcasting Board of Governors operations
    in Indonesia, the Broadcasting Board of Governors Operations in Thailand, and
    Radio Free Asia (RFA). The Sri Lanka transmitting station demonstrated that it was
    well-managed, providing shortwave U.S. Government broadcasts to Afghanistan
    and Pakistan and across Asia, Central Asia, and East Africa. In Indonesia, the BBG
    establishments have done an excellent job, with minimal resources, of reporting on
    this country and reaching out to Indonesia’s population. OIG recommended that the
    Voice of America find a solution to having employees use personal funds to temporar-
    ily pay agency costs when there is no cashier or petty cash. In Thailand, the privatiza-
    tion process was under development to turn the transmitting station operations over
    to a third-party contractor and to coordinate station operations as part of a broader
    strategic partnership with the British Broadcasting Corporation to achieve long-term
    economies. The Radio Free Asia inspection reported on an organization with high
    morale, strong leadership, and dedication to its mission. It was finding new ways to
    reach its target audience through the Internet, social media, and citizen journalists.
    OIG recommended that RFA find ways to improve its intraoffice communications
    and encouraged additional leadership training for first-and second-level supervisors.

8               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
DATA AND INVESTIGATIVE ACTIVITIES

OIG HOTLINE

The Office of Inspector General Hotline is a confidential channel for receiving allegations
of fraud, waste, abuse, mismanagement, or misconduct involving Department of
State and Broadcasting Board of Governors programs, operations, and assets.

                        Total Complaints Received                                        810
                        Referral To Other Offices for Action                             472
                        Held for Action Within OIG                                         31
                        No Action Necessary                                              307



TYPES OF CASES




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   9
10   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
CONGRESSIONAL AND MEDIA
ACTIVITIES


TESTIMONY AND BRIEFINGS
On November 18, 2010, Deputy Inspector General Harold Geisel testified before
the Senate Committee on Homeland Security and Governmental Affairs Ad Hoc
Subcommittee on Contracting Oversight Regarding Oversight of Reconstruction
Contracts in Afghanistan and the Role of the Special Inspector General.

During this reporting period, OIG briefings to Congressional staff included:

   •	 OIG’s perspective on the House Appropriations Surveys and Investigations
      Subcommittee staff’s study of the Department’s Foreign Service personnel
      surge and associated issues. (October 1, 2010)

   •	 Confirmation process information for staffers of the Senate Foreign Relations
      Committee. (December 2, 2010)

   •	 OIG organizational structure for staffers of the House Foreign Affairs
      Committee. (March 22, 2011)




CONGRESSIONAL MANDATES AND REQUESTS
During this period, OIG issued several Congressionally mandated reports, including:

   •	 Financial statement audits and related reviews mandated under the Chief
      Financial Officers Act of 1990 (P.L. 101-576, as amended).

   •	 Reviews in response to oversight and transparency requirements of the
      American Recovery and Reinvestment Act of 2009 (P.L. 111-5).

   •	 Evaluations pertaining to the Federal Information Security Management Act
      (FISMA) (P.L. 107-347).



           Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   11
     A full listing of reports issued by OIG during this reporting period can be found in
     Appendix 2 at the end of each agency section of this report.

     OIG issued reports in response to Congressional requests:

        •	 Department of State Activities Regarding Shipwreck Salvage Claim (ISP-I-11-36).
           OIG issued this report in response to a request from Representative Kathy
           Castor (FL-11) to determine whether there was evidence to support public
           allegations that the Department offered to support the Government of Spain’s
           claim to coins and artifacts found by Odyssey Marine Exploration, Inc., in
           exchange for Spain’s return of a high-value painting to a private family in
           California.

        •	 Response to Congressional Inquiry on Department of State Leadership’s Role in
           Freedom of Information Act (FOIA) Processes (ISP-I-11-09). OIG conducted
           this special inquiry, in response to a request from Senator Charles E. Grassley
           of Iowa and Representative Darrell Issa of California, to determine whether
           Department of State political appointees obstructed the release of information
           or otherwise unduly influenced the FOIA process.

        •	 Review of Department of State Information Security Program (AUD/IT-11-07).
           This report was issued in compliance with Title III of the Federal
           Information Security Management Act of 2002 (P.L. 107-347), which
           requires OIG to evaluate the Department’s information security program.

        •	 Review of Broadcasting Board of Governors Information Security Program
           (AUD/IT/IB-11-08). This report also was issued in compliance with the
           Federal Information Security Management Act of 2002, which requires
           OIG to evaluate the Broadcasting Board of Governors information security
           program.




     LEGISLATION MONITORED
     OIG reviewed and monitored the following legislation and bills during the reporting
     period:

        •	 H.R. 1, Full-Year Continuing Appropriations Act, FY 2011, as it pertains to
           oversight funding. Defeated at Senate.

        •	 H.R. 1, Substitute Amendment, Full-Year Continuing Appropriations Act,
           FY 2011, as it pertains to oversight funding. Rejected at Senate.



12               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
   •	 P.L. 111-242, P.L. 111-290, P.L. 111-317, P.L. 111-322, P.L. 112-4, and
      P.L. 112-6, Continuing Appropriations Public Laws, FY 2011.

   •	 S.3676, Department of State, Foreign Operations, and Related Programs
      Appropriations Bill, 2011.

   •	 P.L. 111-212 (H.R. 4899), Supplemental Appropriations Act, 2010, as it
      pertains to oversight funding in Pakistan, Afghanistan, and Iraq.

   •	 P.L. 111-73 (S. 962. H.R. 3642), Enhanced Partnership with Pakistan Act of
      2009, as it relates to authorization of foreign assistance to Pakistan and the
      associated oversight.

   •	 H.R. 2410, Foreign Relations Authorization Act, Fiscal Years 2010 and 2011.




MEDIA ASSISTANCE AND OUTREACH
OIG made its reports available to the media, both directly and online, through regu-
lar postings on its Web site. Improvements continue to be made on the OIG public
site to enhance relevance and usefulness, including easier access to reports through
clickable icons and more in-depth customer support.

The OIG intranet site has also been redesigned, with several new features, includ-
ing photos and descriptions of OIG work-in-progress, to increase outreach to the
Department and heighten functionality. These features include:

   •	 An “Inspection Resources” page that provides easy access to surveys and
      questionnaires for posts and bureaus.

   •	 An “Innovative Practices” page that showcases new ways overseas posts and
      domestic bureaus are working to improve the effectiveness and efficiency of
      the Department. The page also includes an interactive feedback/discussion
      blog for each case study.

   •	 An “OIG Activities” page that addresses a broad range of OIG activities and
      initiatives.

Media expressed an interest in a broad range of OIG activities, including:

   •	 Inspection of Department-Required and Congressionally Mandated Reports:
      Assessment of Resource Implications (ISP-I-11-11) October 2010.



            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   13
     •	 Inspection of Embassy Luxembourg, Luxembourg (ISP-I-11-17A) Jan 2011
        Review of the Process for Sharing Department Cables Via the Net-Centric
        Diplomacy Program (NCD) (SIA-I-08-04) September 2008 – classified.

     •	 The Bureau of Diplomatic Security Kabul Embassy Security Force Performance
        Evaluation (MERO-A-10-11) September 2010.

     •	 Limited-Scope Review of the Bureau of Diplomatic Security’s Oversight of
        Explosives Detection Canine Programs (MERO-I-10-14) September 2010.

     •	 Performance Evaluation of Department of State Contracts to Assess the Risk of
        Trafficking in Persons Violations in Four States in the Cooperation Council for
        the Arab States of the Gulf (MERO-I-11-06) January 2011.

     •	 Compliance Follow-up Review of Embassy Baghdad, Iraq (ISP-C-11-08A)
        October 2010 details on OIG’s role in the investigation of passport system
        “snoops”.

     •	 The Middle East Regional Office’s (MERO) audit of INL’s air wing program
        in Afghanistan.

     •	 The scope of OIG’s general oversight.

     •	 OIG’s role in the investigation of DynCorp International activities in
        Afghanistan.

     •	 OIG’s audit regarding the December 25, 2009, attempted terrorist
        bombing of Northwest Airlines Flight 253.




14           Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
DEPARTMENT
  OF STATE
MIDDLE EAST REGIONAL OFFICE

PAE Operations and Maintenance Support at Embassy Kabul,
Afghanistan, Performance Evaluation (MERO-I-11-05)
The Department’s oversight of PAE’s performance was affected by the contracting
officer’s lack of on-site management, gaps in coverage, and a lack of continuity in
CORs. From September 2006 to September 2009, the embassy expended an estimated
$10 million for PAE operations and maintenance support without modifying and,
consequently, not fully funding the contract. OIG found several problems, including
the administration of $193,000 in award fees paid to PAE, potential double payment
for PAE labor, and reimbursement to PAE for $325,474 in taxes paid to the Afghan
Government. There were also issues related to provision of fuel for the embassy.

Although PAE generally managed distribution of vehicle fuel effectively, and properly
maintained elevators and fire protection systems, OIG found several issues related to
maintenance and operations. In particular, there is a potential fire hazard in the west
compound where sprinklers are located over electric switchgears. PAE did not provide
required escort services for individuals without security clearances for at least 1 year,
although the embassy paid $248,820 for such services. PAE was unable to ensure
timely completion of work orders using the work order system, which OBO believes
can be resolved. OIG determined that Embassy Kabul could realize cost savings by
converting from PAE’s diesel generators to KCP. Although the required FAR clause is
not in the PAE contract, OIG found no evidence that PAE has engaged in TIP.

OIG recommended that the Department seek reimbursement from PAE of more
than $1.15 million in total for award fees, taxes paid by PAE to the Afghan
Government, overpayment for fuel, and escort services that PAE did not provide.
Embassy Kabul should consider converting its electrical power system to the KCP
grid, which could result in potential cost savings. Embassy Kabul should also evalu-
ate the purchase of four diesel generators at a cost of $1.36 million. Finally, the
contract with PAE should be modified to include the required FAR clause on TIP.


PAE Operations and Maintenance Support for the Bureau
of International Narcotics and Law Enforcement Affairs’
Counternarcotics Compounds in Afghanistan, Performance
Evaluation (MERO-I-11-02)
PAE’s ability to provide adequate operations and maintenance support at the coun-
ternarcotics compounds in Kabul and Kunduz has been negatively affected by


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   17
     weaknesses in oversight by INL, including the lack of a strategic acquisition plan,
     delays in signing and funding task order modifications, lack of a quality assurance
     surveillance plan (QASP), late payment of invoices, and inadequate oversight and
     management by CORs.

     PAE has generally provided satisfactory operations and maintenance support at both of
     INL’s counternarcotics compounds, but has also demonstrated performance weaknesses
     at the facilities. In Kabul, OIG found multiple deficiencies related to fuel provision and
     PAE’s food service subcontractors. Security vulnerabilities had been identified but not
     addressed. At the Kunduz compound, OIG found longstanding difficulties with the
     structural integrity of its buildings and sewage leach (drainage) fields, lack of planning
     for replacement of diesel generators, failure of the food service subcontractor to follow
     standard operating procedures for food preparation, and failure of PAE to adequately
     oversee dining facility operations. Finally, the guards at Kunduz worked every day of
     the week and were unfamiliar with standard operating procedures.

     OIG recommended development of an acquisition plan and a QASP, and assignment of
     a sufficient number of dedicated CORs. At Kabul, OIG recommended that INL ensure
     accurate measurement of fuel and quality control of food service, and evaluate physical
     security requirements. At Kunduz, OIG recommended that INL resolve construction
     deficiencies, assess electric power needs, and ensure PAE’s compliance with food service
     standards. All guards should be familiar with standard operating procedures and
     should get sufficient rest and days off. In comments on the draft report, both INL and
     Embassy Kabul noted that actions had been taken on many of these issues.

     In addition to its recommendations, OIG identified several issues for Department
     consideration regarding converting to the KCP grid, timing and planning for tran-
     sition of the counternarcotics effort to the Afghan Government, and integrating
     Afghan nationals into operations and maintenance support.


     Palestinian Authority Security Forces Infrastructure Construction
     Projects in the West Bank, Performance Evaluation (MERO-I-11-03)
     Under a 2007 Framework Agreement, the U.S. Government committed to provide up
     to $80 million to professionalize the Palestinian Authority security forces (PASF). INL
     has estimated that an additional $50 million will be required to complete construction
     to support PASF infrastructure, and OIG noted the Department had signed an agree-
     ment in December 2010 to provide funding not to exceed $150 million in total.

     During site visits, OIG noted that infrastructure construction appeared to be of
     generally good quality and on schedule. The Palestinian Authority has cooper-
     ated effectively with INL and the U.S. Security Coordinator (USSC) to oversee the
     contract award process and monitor construction projects, has acquisition regulations
     that closely resemble those of the U.S. Government, and checks contractors for any
     links to terrorist organizations.
18               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
INL representatives at Consulate General Jerusalem have fulfilled their responsibili-
ties, and have provided adequate oversight of construction contract awards and proj-
ect implementation. All key personnel involved in construction contracts have been
properly vetted and cleared by the Department. Although the INL staff at Consulate
General Jerusalem has grown since 2007, its only U.S. Government direct-hire
employee is the director. Other employees who are not direct-hires perform functions
that are either inherently governmental, or approach being inherently governmental.

OIG recommended that INL coordinate with the USSC to develop detailed plans to
complete and sustain the PASF construction program. OIG also recommended that
INL conduct a staffing analysis of its office at Consulate General Jerusalem.


Limited-Scope Review of the Design and Construction of a Recreation
Center at Embassy Dushanbe, Tajikistan (MERO-I-11-04)
In December 2006, Embassy Dushanbe and RPSO awarded a contract, valued at
$318,913 for construction of a post-managed recreation center, to a local contractor,
PIR-5 LTD (PIR-5). OBO approved the initial design and issued a building permit
in October 2007. In July 2008, RPSO issued a notice to proceed, and construction
began in the fall of 2008. In May 2009, PIR-5 ceased site activities and walked off
the job when RPSO withheld payments. The contract was formally terminated on
July 15, 2009. The swimming pool facilities must be demolished, redesigned, and
reconstructed at an estimated cost of $1.5 million—five times the original cost.

OIG found a number of deficiencies in the design and construction of the recreation
center, including RPSO’s and the embassy’s failure to assess the reasonableness of the
proposed price. PIR-5 did not design and construct the Dushanbe recreation center
according to required building codes and guidelines. Required designs were not
submitted by PIR-5, nor were design issues resolved prior to starting construction.
RPSO failed to limit U.S. Government risk because the contractor was not required
to purchase payment bonds and insurance. CORs did not properly monitor the
contractor’s performance or progress, failed to establish quality assurance measures,
and did not ensure the contractor submitted required documents. Invoices were
approved and paid although the work was unacceptable. COR turnover and a short-
age in management staff led to a lack of continuity in contract management.

OIG recommended that an employee with construction engineering experience
chair the managed project technical evaluation team and that the contracting officer
obtain an OBO audit before awarding a contract varying more than 20 percent from
the Independent Government Cost Estimate. OIG also recommended that OBO
fully review and approve designs, management plans, and quality assurance plans
before beginning construction; review construction progress and identify risks; and
establish COR guidance.



            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   19
     Performance Evaluation of Department of State Contracts To
     Assess the Risk of Trafficking in Persons Violations in Four
     States in the Cooperation Council for the Arab States of the Gulf
     (MERO-I-11-06)
     OIG evaluated six contracts at four embassies and two consulates general in Kuwait,
     Oman, Saudi Arabia, and the U.A.E., and found no direct evidence that contractors
     violated the provisions of the Trafficking Victims Protection Act of 2000 (TVPA) or
     the FAR mandatory clause 52.222-50 (Combating Trafficking in Persons). However,
     OIG found several contractor practices that increased the risk of TIP, including
     coercion at recruitment and destination, exploitative conditions of work, and abuse of
     vulnerability.

     Seventy-seven percent of contract employees interviewed paid recruitment fees
     upfront. Every contractor reviewed in Kuwait, Oman, Saudi Arabia, and the U.A.E.
     confiscated workers’ passports, and 68 of 75 workers could only access their passports
     for travel. Workers at all four missions were frustrated with inconsistent payment,
     confusing pay stubs, and withheld wages. Some workers were not compensated as
     they should have been under local labor laws, and 83 percent of workers performed
     overtime or outside work, some of which was not legally sanctioned in the host
     country. More than 70 percent of workers lived in overcrowded, unsafe, or unsanitary
     conditions.

     Four of the six missions were following the FAR to prevent trafficking, but the FAR
     guidelines do not specify how to monitor contractors for TIP, so OIG could not
     conclude that TIP monitoring is effective. There was mandatory citation in contracts
     of FAR clause 52.222-50, but CORs did not have standard procedures to monitor the
     clause’s implementation. In addition, standard contract language, the Foreign Affairs
     Manual (FAM), and the Foreign Affairs Handbook (FAH) fail to address how to
     monitor contracts for TIP-related issues. OIG believes the risk of TIP can be miti-
     gated by incorporating the best practices found at some missions, as well as through
     compliance with OIG’s recommendations.

     OIG recommended embassies obtain and distribute to contractors information on
     regulations regarding passport retention. The embassies should monitor contracts
     to ensure compliance with host country labor laws. One embassy should inform its
     gardening contractor that the employees’ unsafe housing conditions are unaccept-
     able. OIG also recommended that for future solicitations, contractors be required to
     include descriptions of housing, provide workers with standard contracts in English
     and their native language, and provide information about labor laws and the U.S.
     Government’s “zero tolerance” TIP policy in workers’ native languages. CORs should
     be given detailed guidance on monitoring potential TIP violations, and training
     curricula should be developed and implemented.



20               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
                BEST PRACTICE: Collection of Information on Host Country
                Labor Laws

                Issue: OIG’s review of contractor policies and employee interviews revealed
                that labor law information was rarely communicated to workers and that
                contractors had inconsistent policies to keep workers informed. Although all
                six contractors stated workers received information on local labor laws, more
                than half of the foreign workers interviewed reported they did not have this
                information. Only 16 of 75 workers reported some contractor-provided train-
                ing in host country labor laws. Eight workers stated they learned of changes in
                laws through word of mouth or their own research.
                Response: At all four embassies and the two consulates general, the politi-
                cal sections collected pamphlets with information on host country labor laws
                in foreign workers’ native languages. These pamphlets were either provided
                directly to workers or to contractors who were expected to distribute them.
                Result: Because the embassies and consulates general provided this infor-
                mation, foreign workers were able to better understand local labor laws and
                identify potential violations.




                BEST PRACTICE: Locally Employed Staff Interacting with
                Foreign Workers

                Issue: Contracting officers’ level of engagement with contractors and their
                contractors’ employees (foreign workers) varied at the missions. Due to language
                barriers and different customs, OIG found that some foreign workers were hesi-
                tant to communicate with contractor management on personnel issues.
                Response: At four missions, locally employed and bilingual staff were encour-
                aged to routinely engage with workers and contractor management.
                Result: OIG observed that these staff members were more approachable to
                foreign workers, allowing the general services officers to gain insight and infor-
                mally monitor potential labor issues with the contractors.




The Bureau of Population, Refugees and Migration’s Internally
Displaced Persons Program in Pakistan, Performance Evaluation
(MERO-I-11-01)
By April 2010, PRM had contributed a total of $80.5 million to UNHCR and ICRC
to assist more than 2.7 million IDPs in northern Pakistan. OIG found no evidence
of assistance funds or material being diverted from either UNHCR or ICRC for


           Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   21
     illegitimate purposes. However, OIG could not determine the overall effectiveness of
     IDP assistance because neither organization reports its performance results against
     performance targets or indicators. UNHCR does not have program-level plans for
     procurement of supplies and materials, and only emergency shelters have planned
     targets. The amount of goods ICRC is able to procure, and the number of IDPs it
     can assist, are both determined by resource availability and capacity. However, both
     UNHCR and ICRC ensure the quality and low cost of goods through purchasing
     policies and procedures. UNHCR warehouse operations and records are adequately
     maintained.

     OIG recommended that PRM encourage UNHCR and ICRC to report progress
     toward specific IDP assistance targets to donors, and provide updates on perfor-
     mance measurement plans. PRM should also encourage UNHCR to update Embassy
     Islamabad on the funding and material needs of all organizations within the assis-
     tance groups it leads. Finally, OIG recommended that entities providing assistance
     be encouraged to establish assistance targets and indicators and report performance
     results.


     Performance Evaluation of Department of State Contracts to
     Monitor Vulnerability to Trafficking in Persons Violations in the
     Levant (MERO-I-11-07)
     OIG evaluated 10 contracts at Embassy Damascus, Embassy Beirut, Embassy Tel
     Aviv, Embassy Amman, and Consulate General Jerusalem, and found no direct
     evidence that contractors violated the provisions of the TVPA or the mandatory FAR
     clause. The management practices of 9 of the 10 contractors showed no increased risk
     of TIP. One contractor engaged in practices that increased the risk of TIP, including
     long work hours and payment issues, but the contractor was disqualified from issuing
     a proposal for a new contract.

     All five missions are following Federal contracting guidelines to prevent trafficking.
     Nine of 10 contracts reviewed contained the mandatory citation or reference to FAR
     clause 52.222-50. Nine of 10 contracts also included language on contractor compli-
     ance with local labor laws, regulations, customs, and practices pertaining to labor,
     safety, and similar matters.

     FAR clause 52.222-50 does not provide guidance on monitoring for TIP, and
     mission officials, including CORs, received little guidance from the Department.
     However, OIG found there were efforts to monitor for TIP, including translation of
     the required FAR clause into Arabic, screening for underage employees, determining
     whether contractors have a history or ongoing suspicions of TIP problems, and train-
     ing of CORs in TIP prevention.




22               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
AUDITS


FINANCIAL MANAGEMENT

Independent Accountant’s Report on the Application of Agreed-
Upon Procedures: Retirement, Health Benefits, and Life Insurance
Withholdings/Contributions and Supplemental Semiannual
Headcount Report Submitted to the Office of Personnel Management
(AUD/FM-11-01)
An independent external auditor performed agreed-upon procedures as required by
an Office of Management and Budget Bulletin. These procedures were performed
solely to assist the Office of Personnel Management (OPM) in assessing the reason-
ableness of the retirement, health benefits, and life insurance withholdings and
contributions, as well as semiannual headcount information, submitted to OPM
by the Department. The auditor identified a difference in the comparison of the
amount of life insurance withholdings reported to OPM and the amount in the
payroll register for one pay period, three instances in which health benefits elections
and seven instances in which life insurance elections in the payroll system did not
agree with the election forms in official personnel files, seven instances in which
the Department could not provide health benefits or life insurance election forms,
two instances in which life insurance election forms did not support an employee’s
waiver or cancellation of coverage, and one difference between the auditor-calculated
amount of life insurance withholdings and the amount reported to OPM for one pay
period.


Independent Auditor’s Report on the U.S. Department of State 2010
and 2009 Special-Purpose Financial Statements (AUD/FM-11-02)
An independent external auditor audited the Department’s reclassified balance sheets
as of September 30, 2010 and 2009, and the related reclassified statements of net
cost and changes in net position for the years then ended (special-purpose financial
statements) contained in the special-purpose closing package of the Department. In
the auditor’s opinion, the special-purpose financial statements and accompanying
notes present fairly, in all material respects, the financial position of the Department
as of September 30, 2010 and 2009, and its net cost of operations and changes in



            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   23
     net position for the years then ended, in conformity with accounting principles
     generally accepted in the United States of America and the presentation pursuant to
     Department of the Treasury requirements.

     The auditor identified no material weaknesses in internal control over the finan-
     cial reporting process for the special-purpose financial statements, and its tests of
     compliance with Department of the Treasury requirements disclosed no instances of
     noncompliance that were required to be reported.


     Independent Auditor’s Report on the U.S. Department of State 2010
     and 2009 Financial Statements (AUD/FM-11-03)
     An independent external auditor audited the Department’s annual financial state-
     ments as of, and for the years ended, September 30, 2010 and 2009. In the auditor’s
     opinion, the consolidated balance sheets as of September 30, 2010 and 2009, and
     the related consolidated statements of net cost and changes in net position for the
     years then ended, and the related combined statement of budgetary resources for the
     year ended September 30, 2010, present fairly, in all material respects, the financial
     position of the Department as of September 30, 2010 and 2009, and its net cost
     of operations and changes in net position for the years then ended, and its changes
     in budgetary resources for the year ended September 30, 2010, in conformity with
     accounting principles generally accepted in the United States of America. The audi-
     tor was unable to obtain sufficient evidential support for the amounts presented in
     the 2009 combined statement of budgetary resources and, therefore, was unable to
     express an opinion on the 2009 combined statement of budgetary resources.

     The auditor found certain deficiencies in internal control that it considered to be
     significant deficiencies. Specifically, the auditor found significant deficiencies in the
     internal controls over financial reporting, property and equipment, the accounts
     payable accrual, budgetary accounting, the liability to international organizations,
     and information technology. The auditor also found instances of noncompliance
     with certain provisions of laws and regulations, including instances in which the
     Department’s financial management systems did not substantially comply with the
     requirements of the Federal Financial Management Improvement Act.


     Management Letter Related to the Audit of the U.S. Department of
     State 2010 Financial Statements (AUD/FM-11-04)
     During the audit of the Department’s 2010 financial statements, the independent
     external auditor identified matters involving internal controls and other operational
     matters that it brought to the Department’s attention related to funds with the
     Department of the Treasury, payroll, documentation, accounts receivable, property



24               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
and equipment, accounts payable, and budgetary resources. The external audi-
tor recommended that the Department take appropriate action to address these
weaknesses.


Independent Review of the U.S. Department of State Accounting
and Authentication of FY 2010 Drug Control Funds and Related
Performance Report (AUD/FM-11-15)
OIG independently reviewed the assertions made in the Department’s accounting of
FY 2010 drug control funds and related performance report, which was submitted to
the Director of the Office of National Drug Control Policy (ONDCP) in compliance
with ONDCP guidance. Based on OIG’s review, nothing came to OIG’s attention
that caused it to believe that the management assertions included in the report were
not fairly stated, in all material respects, based upon the guidance.




INFORMATION TECHNOLOGY

Review of Department of State Information Security Program
(AUD/IT-11-07)
In response to FISMA, OIG had an independent public accountant review the
Department’s Information Security Program to evaluate the Department’s progress
in addressing FISMA information management and information security program
requirements. The review found that the Department had, since the FY 2009
review, taken actions to improve management controls, including updating toolkits
to provide guidance to system owners and initiating a pilot program for the Plan of
Action and Milestones (POA&M) Grading Memorandum.

Overall, the independent public accountant found that the Department has estab-
lished and is maintaining an information security program. However, for the
Department to improve and bring the program into compliance with applicable
requirements, the independent public accountant made recommendations for the
Department to address control weaknesses in the system inventory list, risk manage-
ment framework, POA&Ms, security awareness training and personnel security,
security configuration management, remote access program, account and identity
management, incidents of personally identifiable information, continuous monitor-
ing, contingency planning, and contractor oversight.




           Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   25
     INTERNATIONAL PROGRAMS

     Audit of Sources and Uses of Global HIV/AIDS Initiative Global
     Health and Child Survival Funds Related to the President’s
     Emergency Plan for AIDS Relief (PEPFAR) for FYs 2007 and 2008
     (AUD/SI-11-10)
     An independent public accountant audited the sources and uses of Global HIV/AIDS
     Initiative (GHAI) and Global Health and Child Survival (GHCS) funds related to
     the U.S. President’s Emergency Plan for AIDS Relief (PEPFAR). The primary objec-
     tive of the audit was to track the flow of PEPFAR GHAI/GHCS-State funds from
     initial appropriation to obligation and outlay (expenditure) via PEPFAR implement-
     ing agencies to and by award recipients and to track the flow of financial data back
     from award recipients and implementing agencies to the Office of the U.S. Global
     Aids Coordinator (OGAC).

     The audit determined that OGAC was not ensuring that implementing agencies
     were reconciling obligations and disbursements reported to it with the correspond-
     ing amounts contained on the forms submitted to the Department of the Treasury,
     OGAC’s internal controls for agencies receiving PEPFAR funds were not always
     effective, funds were not always received timely or obligated in a timely manner, and
     internal controls related to PEPFAR awards were not always effective.

     The independent public accountant made recommendations for OGAC to require
     implementing agencies to reconcile obligations and disbursements reported to it with
     amounts reported on the forms submitted to the Department of the Treasury, to
     ensure that funding flow does not impede program performance, and to determine
     the feasibility of streamlining one implementing agency’s review and approval process
     for obligating funds.




     SECURITY AND INTELLIGENCE

     Audit of Department of State Actions Regarding the December 25, 2009,
     Attempted Terrorist Bombing of Northwest Airlines Flight 253
     (AUD/SI-11-11)
     OIG issued this report to the Assistant Secretary, Bureau of Consular Affairs, and to
     the Chairman of the House Committee on Oversight and Government Reform. It
     presents OIG’s independent assessment of the manner in which information related


26               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
to the December 25, 2009, terrorist bombing attempt of Northwest Airlines Flight
253 was collected and disseminated by the Department among key Federal agencies
and addresses other specific questions relating to this event.

OIG found that the Department has taken a number of corrective actions that
collectively represent significant progress in addressing the failures that contributed to
the attempted Christmas Day bombing. However, additional measures are needed to
improve management oversight procedures in the Visas Viper cable process, includ-
ing ensuring that information contained in a Visas Viper cable submission is accurate
and complete. (A Visas Viper cable is a communication from a Foreign Service post
to appropriate Federal agencies regarding an individual known to be, or suspected of
being, involved in terrorism.)

OIG found the Department has implemented more robust internal procedures and
has reviewed Visas Viper cables issued in 2008 and 2009 to detect and revoke visas
held by individuals considered to be threats to national security. In addition, the
Department has taken steps to strengthen visa services through system enhance-
ments, including a new online nonimmigrant visa application system, and has
increased collaboration with its security partners to exchange information relating
to potential terrorists. However, OIG determined additional measures are needed to
further ensure that the failures that allowed Umar Farouk Abdulmutallab to enter
the United States and carry out his terror plot are not repeated. OIG offered five
recommendations to the Bureau of Consular Affairs to enhance management over-
sight of the Visas Viper process and to ascertain whether the subjects of previous
Visas Viper cables have had their U.S. visas revoked or their names entered into the
Department’s Consular Lookout and Support System (CLASS).




CONTRACTS AND GRANTS

Audit of Funding Provided by the American Recovery and
Reinvestment Act for the Foreign Service Institute National Foreign
Affairs Training Center (AUD/CG-11-12)
In its audit of funding provided by the American Recovery and Reinvestment Act
(Recovery Act) to the Foreign Service Institute (FSI), the independent public accoun-
tant determined that FSI generally managed Recovery Act funds effectively to meet
program goals and requirements. The accountant also found minor deficiencies,
however, in the posting of award notices on Federal contracting Web sites and in
maintaining documentation in contract files. The accountant made recommenda-
tions for FSI to improve its contract oversight.



            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   27
     Audit of Department of State Compliance With Federal
     Procurement Data System – Next Generation Reporting
     Requirements of the American Recovery and Reinvestment Act
     (AUD/CG-11-13)
     In its audit of contract actions reported in the Federal Procurement Data System –
     Next Generation (FPDS-NG) by the Department as they pertain to the Recovery
     Act, an independent public accountant found that the Department did not report
     Recovery Act-specific information in FPDS-NG accurately. The accountant also
     identified inaccuracies in other acquisition data and found that contract document
     numbers and modifications to the document numbers were not entered and finalized
     in FPDS-NG within the required 3-day timeframe. The accountant made recom-
     mendations for the Bureau of Administration to strengthen policies, procedures, and
     controls for reporting contract information in FPDS-NG.




28              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
INSPECTIONS


DOMESTIC INSPECTIONS

Inspection of Bureau of Diplomatic Security, Countermeasures
Directorate (ISP-I-11-06)
The Bureau of Diplomatic Security, Countermeasures Directorate (DS/C), effectively
provided physical security, technical security, defensive equipment, and armored vehi-
cles, while ensuring secure delivery of classified information and equipment. Morale
was high among the domestic staff, and resources were adequate to meet needs.

Disposal of armored vehicles needed attention. OIG recommended that the Bureau
of Diplomatic Security (DS), in coordination with the Bureau of Administration,
establish a system for posts to dispose of armored vehicles in accordance with
prescribed disposal requirements.

Requiring couriers to use domestic travel authorizations and obtain deputy assistant
secretary approval for business class travel was impeding expeditious travel authoriza-
tions. OIG recommended that DS allocate funding for couriers’ travel to the finan-
cial management systems at the missions where the couriers are posted and authorize
these missions to initiate and complete travel authorizations and vouchers. OIG also
recommended that DS authorize courier division and hub office directors to sign
premium class travel authorizations for couriers’ travel, when needed.


Inspection of the Bureau of European and Eurasian Affairs
(ISP-I-11-22)
Bureau of European and Eurasian Affairs (EUR) responsibilities are of core impor-
tance to U.S. interests. The more than $850 million in annual foreign assistance to
this region was effectively linked to foreign policy objectives, and assistance programs
were well coordinated. However, the bureau’s organizational structure needed a top-
to-bottom review to improve efficiency.

The bureau’s Office of Press and Public Diplomacy followed two potentially conflict-
ing public diplomacy strategies: the Under Secretary for Public Diplomacy and Public
Affairs’ Framework, and EUR’s own strategic plan. These two plans needed to be


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   29
     reconciled. Also, the Office of the Special Envoy for Holocaust Issues was intended
     to be temporary when it was established in 1998. OIG recommended that the office’s
     function should be phased out and incorporated into other entities.

     Efforts to consolidate services across the Department had mixed effects on EUR’s
     productivity. On one hand, the Joint Executive Office effectively provided admin-
     istrative support to customers in EUR. On the other hand, EUR experienced infor-
     mation technology (IT) problems, even 2 years after the consolidation of desktop
     services with the Bureau of Information Resource Management (IRM). IRM should
     clarify roles and responsibilities for telecommunications, wireless, and data services
     for all consolidated bureaus. EUR should clarify and document its own methodolo-
     gies, including a systems development life-cycle methodology for all bureau-specific
     applications and systems, and written standard operating procedures in the financial
     management division.




     OVERSEAS MISSIONS


     BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS


     Inspection of Embassy Bangkok, Thailand (ISP-I-11-03A)
     Embassy Bangkok met its key goals and objectives. Washington end-users, in
     particular, praised the embassy’s reporting on internal political dynamics during the
     months-long political and security crisis that gripped Thailand in spring 2010. OIG
     noted that employees worked creatively in an era of limited resources to maximize
     sources of support for health research partnerships, public diplomacy, and foreign
     assistance projects. These efforts helped solidify productive relations with the Thai
     Government and people.

     The ambassador brought to his position great strength in reporting and analysis but
     lacked the broad leadership and program management experience needed to effec-
     tively run a U.S. mission of this size and complexity. OIG recommended that the
     Department require FSI DCM training for career Foreign Service officers assigned to
     a large embassy for the first time as ambassador.

     The reporting sections focused well on high-priority U.S. policy concerns. A greater
     emphasis on forward-looking analysis would help Washington consumers better
     prepare for dramatic changes occurring in Thailand.



30               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
The Department and a large number of U.S. Government agencies located regional
operations in Bangkok to take advantage of the capital’s large, productive, and
low-cost labor force, convenient air hub, large hotel capacity, and history of politi-
cal stability. However, regional operations differed from those in bilateral missions.
Planning was essential to avoid duplication of effort and inefficiencies in service
delivery. The trend toward regionalization in Bangkok may have reached its limit,
as its advantage as a politically stable location for regional operations is diminishing
with Thailand’s rapidly evolving political situation.

The Bangkok consular section provided generally good service to its large and diverse
American citizen clientele and to a moderate-sized visa applicant pool, but the section
could be more efficient, exert closer management controls, and operate with a leaner
staff with more proactive leadership.


Inspection of Embassy Dili, Timor-Leste (ISP-I-11-21A)
OIG’s findings were central to the fact that Embassy Dili should operate as a normal,
small, hardship embassy. The first U.S. Ambassador to Timor-Leste arrived in 2003,
and with the arrival of the third Ambassador, the embassy should institutionalize the
policies, procedures, and management controls that mark an established embassy.

In 2005, the Department opened an interim office building, anticipating that a new
chancery would be built in 2012. The start date for construction has since been
moved to 2023. As such, current facilities can no longer be considered interim. OIG
recommended upgrading the existing office space to meet standard facility and secu-
rity embassy needs for at least the next 12 years.

As a cost savings to the U.S. Government, the embassy should explore alternative
funding methods that would enable the U.S. Agency for International Development
to participate in mission-wide furniture and appliance pools.


Inspection of Embassy Jakarta, Indonesia (ISP-I-11-24A)
Embassy Jakarta grew rapidly as the U.S. partnership with Indonesia deepened and
broadened over the past several years. New program and personnel proposals were
not vetted in a strategic way. As part of the FY 2013 Mission Strategic and Resource
Plan (MSRP) process, the Ambassador needed to conduct his first strategic review and
make changes as indicated by that review, to include establishing what kind of diplo-
matic establishment the American Presence Post in Medan should be. If it should be a
regular consulate, the embassy needed to make that case to the Department. OIG also
recommended that the embassy review every mission position and program and make
appropriate changes in accordance with the President’s letter of instruction to chiefs of
bilateral missions, to more effectively meet foreign policy goals.


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   31
     Embassy Jakarta successfully implemented several innovative initiatives. @america
     is an innovative, exciting, and expensive experiment in public diplomacy outreach.
     The mission took an integrated approach to security and other challenges to help
     @america succeed, but a continuing performance measurement effort would be
     required to assess success. The information management program was also a standout
     success at Embassy Jakarta. The program was comprehensive, possessing an array
     of cross-cutting initiatives that put the mission on the forefront of the information
     management program in the Department.

     Continued delays with the new consulate compound project for Consulate General
     Surabaya not only affected staff morale but also created secondary management prob-
     lems. OBO needed to keep mission leadership better informed about progress on the
     project.


                     BEST PRACTICE: Customer Service Center – One-Stop Shop
                     Service

                     Issue: Embassy Jakarta’s management office wanted to provide a one-stop-
                     shopping customer service center to the mission. The customer service center
                     program initiated by the management office did not succeed. The previous
                     information management officer volunteered the information systems center to
                     take over the program.
                     Response: The information systems center staff created four areas of respon-
                     sibility: management services, information technology trainer, information
                     technology wireless (Personal Data Assistants (PDAs) and cell phones), and
                     general assistance.
                     Result: Under the direction of the information systems center, the customer
                     service center was highly successful and is now the focal point for all assis-
                     tance to the embassy staff. The center’s impact on the Mission Strategic and
                     Resource Plan goal of improving and consolidating mission facilities and
                     services has been tangible, as reflected in greatly improved customer satisfac-
                     tion and reduced complaints. This approach is quickly spreading, with other
                     embassies showing interest. The customer service center was featured in an
                     article in the September edition of State Magazine. This approach is also a
                     significant change in the way the embassy provides these services, and the
                     information management staff worked hard to make it happen. The center
                     was presented as a best practice at the Bureau of East Asian and Pacific Affairs
                     regional management conference.




32              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
                 BEST PRACTICE: BINUS Information Technology Internship

                 Issue: The embassy wanted to implement an information technology intern-
                 ship that could bring fresh and innovative ideas from local students who are a
                 target for mission outreach.
                 Response: The embassy created a program with BINUS, Indonesia’s top
                 information technology university, consisting of a 6-month internship for two
                 Indonesian university students, one male and one female. The embassy received
                 100 applications from 600 university students who learned of the internships at
                 their annual career opportunities seminar.
                 Result: The internship program has been a success in bringing together the
                 Indonesian student body and the mission’s strategic goal of solidifying a
                 positive impression among Indonesian youth. As part of the program, interns
                 supported a $112,000 social media Presidential visit campaign funded by the
                 Under Secretary for Public Diplomacy and Public Affairs. Management was
                 interviewed by one of the leading university magazines. The magazine article,
                 which reached more than 50,000 students, received positive reviews. Previous
                 mission leadership praised the program’s approach to the Mission Strategic
                 and Resource Plan objective of “Fostering Constructive Dialogue with people
                 aged 15-30. (Embassy Jakarta) solidified young Indonesians’ impressions of
                 the United States at a very receptive age.” The program was presented as a
                 best practice at the Bureau of East Asian and Pacific Affairs management and
                 financial management conferences.




BUREAU OF EUROPEAN AND EURASIAN AFFAIRS


Inspection of Embassy Athens, Greece (ISP-I-11-15A)
The new Ambassador and his team made a significant positive impact on mission
morale and policy direction. In light of past ethics concerns at the mission, he reaf-
firmed his commitment to following the highest ethical standards and addressed
significant personnel, management, and morale issues.

The embassy’s political and economic sections effectively kept Washington informed
about Greece’s recent financial crisis, but needed to include more analysis in updates
and in stand-alone reporting. The consular section fulfilled a major policy goal with
Greece’s entry into the Visa Waiver Program and successfully managed a consequent
reorganization and reduction in force.




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   33
     OIG concluded that Consulate General Thessaloniki is not essential to achieving U.S.
     interests in Greece and should be closed. OIG determined that most of the consulate’s
     work could be assumed by embassy staff, at less cost and without significant loss in
     effectiveness, with a small staff remaining in Thessaloniki to provide some services.


                      BEST PRACTICE: Professional Development for First and
                      Second Tour (FAST) Officers and Specialists

                      Issue: The embassy’s large complement of FAST officers and specialists
                      required an effective professional development program.
                      Response: Initiated by the former ambassador and DCM, and with full support
                      from the new front office, Embassy Athens created a robust professional devel-
                      opment program, chaired by a FAST officer. The program includes 18 specific
                      training goals (such as public speaking, interacting with other diplomats, and
                      serving as control officers) and a detailed calendar of events, and features a broad
                      array of programs, including those that expose management officers to political
                      work and, equally important, expose reporting officers to management work.
                      Result: FAST officers and specialists receive excellent training and professional
                      development.




                      BEST PRACTICE: Expanded Emergency Call Center

                      Issue: Embassy Athens received a significant number of telephone calls related
                      to demonstrations and other civil disturbances, traffic accidents, and medical
                      emergencies. Marine security guards do not always have the specialized local
                      knowledge or language capability needed to address this array of issues.
                      Response: Under the supervision of the regional security office, the embassy
                      expanded the security receptionist program into a call center staffed by bilin-
                      gual responders who can provide prompt 24-hour service and assistance to
                      embassy staff and their families. The center also prepares an overnight briefing
                      for the regional security office.
                      Result: Embassy staff and their families facing emergencies or difficulties can
                      receive one-stop assistance around the clock.




     Inspection of Embassy Valletta, Malta (ISP-I-11-16A)
     Embassy Valletta capably conducted its programs in support of U.S interests;
     however, the embassy’s greatest management challenge was to complete the new



34               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
embassy compound, transfer operations there without disruption, and effectively
address significant increases in staff and budget requirements. OIG made recommen-
dations to improve planning for the new embassy compound and key management
issues related to the move.

The Ambassador’s outside activities were a distraction from core mission goals. The
Ambassador needed to focus on embassy priorities and refrain from outside activi-
ties, including writing and speaking engagements that did not pertain directly to
strengthening maritime security, promoting U.S. trade and investment, and other
mission goals.

The rest and recuperation benefit for Embassy Valletta was not justified, and OIG
recommended that it be discontinued.


Inspection of Embassy Luxembourg, Luxembourg (ISP-I-11-17A)
The inspection of Embassy Luxembourg revealed a small, resource-poor mission that
had underperformed for the entirety of the Ambassador’s tenure. The Ambassador’s
confrontational management style resulted in low morale and high stress levels
among American and local employees; an inability to achieve policy advocacy or
reporting objectives; and chronic gaps in senior and other staff positions due to
curtailments, which resulted in considerable costs to the U.S. Government. At the
time of the inspection, additional staff shortages were forecast as other employees
contemplated curtailing. Poor management of the front office aggravated communi-
cation within and outside the office, and led to serious mission-wide inefficiencies.
Taskings were arbitrary and erratic, the flow of information excessively restricted, and
the work of embassy staff members was not properly channeled or coordinated.

Although not responsible for the 2008 reduction in force that depleted mission
resources, the Ambassador remained focused on issues pertaining to the official
residence and monopolization of already limited resources. This narrow focus exac-
erbated an already poor situation and drove some sections to their breaking point.
Among the hardest hit were public affairs, management, and the regional security
office, and the majority of the inspection’s recommendations focused on those areas.
OIG placed specific emphasis on the need to develop a strategic approach to public
diplomacy, to improve financial and facilities management controls and customer
support, and to fulfill security-related requirements, respectively. In addition, OIG
recommended that Embassy Luxembourg work with EUR not only to develop
an overall strategy for maximizing mission resources and focusing its productiv-
ity on policy advocacy, but also to conduct a team-building exercise to improve
internal communication and promote greater confidence and respect between the
Ambassador and mission officers.




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   35
     Inspection of Embassy Copenhagen, Denmark (ISP-I-11-19A)
     Embassy Copenhagen’s Chief of Mission led an effective dialog with the Danes,
     was the driving force behind major initiatives on women’s issues and counterterror-
     ism, and fostered close collaboration among agencies. However, an unwillingness
     to delegate authority had disempowered section leaders, hampered communication,
     and contributed to below-par reporting, analysis, and outreach. OIG recommended
     a restart in the front office: reaffirming a clear chain of command, improving trans-
     parency and communication, and making the DCM responsible for the embassy’s
     day-to-day operations.

     The embassy was consumed with a series of resource intensive, one-off events, includ-
     ing two presidential visits and an ambitious international conference. OIG recom-
     mended that after these large events were over, the embassy should review the use of
     mission resources, reestablish goals, and reset priorities.

     The prospect of Greenland’s future independence from Denmark called for increased
     attention from Embassy Copenhagen. The embassy should form a working group to
     determine whether and how to increase staff time in Greenland, identify U.S. strategic
     interests there, and determine how best to pursue those interests.


                      BEST PRACTICE: Providing Information about the United
                      States to School Children

                      Issue: In Denmark’s crowded information environment with many competing
                      sources, the public affairs section faced a challenge in drawing audience atten-
                      tion to its information materials about the United States. Reaching schoolchil-
                      dren is a special challenge.
                      Response: In cooperation with the Danish Ministry of Education, the embas-
                      sy’s information resource center created a virtual presence post-type site within
                      the ministry’s main education portal for Danish students: www.EMU.dk. The
                      site contains information in Danish and English about American history and
                      culture drawn from America.gov and other sources, and is divided into differ-
                      ent sections for elementary, middle, and high school students. It also contains
                      links to the embassy’s social media sites. For younger children, the site features
                      a mascot, “Teddy,” a teddy bear diplomat who is friends with the main site’s
                      emu mascot and shares adventures with him. One of the blogs on the site refers
                      to them as “furry agents of cultural exchange.”
                      Result: Children are able to find the American information pages because
                      they are part of a Web portal they access frequently. Because the site is located
                      within the ministry’s main education portal and follows its rules on accuracy
                      and objectivity, Danish teachers feel comfortable using the materials in their
                      classrooms.




36               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
                 BEST PRACTICE: The ISSO Toolkit

                 Issue: The Department has mandated the information systems security officer
                 (ISSO) duties to an already overburdened information management staff
                 worldwide. These duties are extensive and are mission critical to an embassy’s
                 infrastructure. Personnel performing these duties spend many hours research-
                 ing cyber security problems on their embassy’s network.
                 Response: The information management officer of Embassy Copenhagen
                 created and automated several of the key everyday processes of the ISSO
                 duties—for example, sending responses to cyber incident response team
                 reports, reviewing users’ Internet history, and enforcing logon hour restrictions.
                 Result: The toolkit saves time spent on day-to-day tasks. For instance,
                 normally processing a cyber incident response team report takes about 2 hours
                 and involves notifying the person of the investigation. The tool automates the
                 research, does not require notifying the person, and takes 5 minutes.




Inspection of Embassy The Hague and Consulate General
Amsterdam, Netherlands (ISP-I-11-23A)
Embassy The Hague was led by a respected Ambassador and DCM who identified
poor mission morale as their top priority, and reached major improvement. They
also managed the bilateral relationship well, particularly during difficult debates over
the Dutch Government’s role in Afghanistan as part of the North Atlantic Treaty
Organization (NATO) coalition.

The proposed new embassy building in The Hague was still in the design phase,
with construction projected to begin as early as 2012. The design concept appeared
to maintain the status quo of placing all consular services at Consulate General
Amsterdam. Given the lack of space and challenging layout of the Amsterdam facil-
ity, OIG recommended that the design concept be promptly reconsidered, to inte-
grate at least some consular functions into the new embassy building.

OIG noted significant interagency dissatisfaction with the mission’s International
Cooperative Administrative Support Services operations. The management section
was striving to improve its customer service orientation, and OIG recommended
more senior management oversight by the DCM to assist in this effort. Other key
recommendations included merging the political/economic section and the global
affairs section to eliminate overlap in portfolios and to provide better coordination
and backup among officers in both sections, establishing a more focused public
diplomacy strategy for the Ambassador, and creating a commercial working group
to coordinate commercial promotion and to implement President Obama’s National
Export Initiative.


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   37
     Inspection of Embassy Oslo, Norway (ISP-I-11-27A)
     Embassy Oslo’s Ambassador and an experienced DCM were working closely to
     advance the goals identified in the embassy’s MSRP, including securing Norwegian
     cooperation on global and regional political-military issues, combating climate
     change, and promoting common economic and business objectives. However, the
     front office needed to foster more effective communication among embassy elements,
     including allowing all sections, some of them on the outside of the policy discussion,
     to work effectively beyond their own portfolios.

     The embassy’s workload, combined with the numerous high-level visitors and
     Congressional delegations that visited during the busy summer months, pushed the
     embassy to the limit of its capacity. Better strategic planning could help to address this
     issue.


     Inspection of Embassy Reykjavik, Iceland (ISP-I-11-28A)
     The Ambassador led a small mission with good morale and focused on policy prog-
     ress. The DCM was credited for strong leadership during his 13-month tenure as
     chargé d’affaires.

     Embassy Reykjavik’s physical facilities were substandard. Although the embassy
     made a good faith effort to deal with recurring problems, the facilities’ shortcomings
     negatively influenced productivity, internal communications, staff security, public
     access, consular service, embassy morale, and national image. OIG believed that basic
     maintenance and minor repairs could not be adequately made to achieve minimum
     standards and recommended that the embassy explore with the host government an
     arrangement to swap the chancery and chief of mission residence with suitable build-
     ings and land.

     Despite the closure of the U.S. military base at Keflavik in 2006, Iceland has contin-
     ued to be a strong NATO ally. Because of the remaining bilateral military relation-
     ship issues, including base contingency rights, the OIG team recommended the
     provision of a permanent U.S. military representative at the embassy and the restora-
     tion of Defense attaché coverage for Iceland from a U.S. Embassy in a nearby NATO
     country.


     Inspection of Embassy Stockholm, Sweden (ISP-I-11-30A)
     Embassy Stockholm made good use of the MSRP through creation of an interactive
     process that gave staff ownership and kept progress toward strategic goals on track.
     Ambitious efforts to reach out to Swedish society had galvanized embassy staff, some-
     times at the expense of pursuing other activities that advanced broad U.S. interests.



38               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
The embassy needed to make a clear assessment of the trade-offs involved in these
activities.

The facilities management operation in Stockholm was exceedingly top-heavy, and
the unit did little strategic planning. OIG recommended developing a preventive
maintenance program and a prioritized project plan for maintenance and construc-
tion projects. The embassy also should sell its underutilized or excess properties,
whose market value was estimated at $3 million.



BUREAU OF NEAR EASTERN AFFAIRS


Inspection of Embassy Doha, Qatar (ISP-I-11-04A)
Embassy Doha effectively advanced U.S. interests in Qatar, especially in the areas of
defense, security, investment, and public diplomacy. Leadership, staff, and teamwork
all were strong, and the embassy’s innovative strategic framework provided a useful
example for other posts. Defense and security issues were the top U.S. objectives in
Qatar. The embassy established a smooth, cooperative relationship with the U.S.
Central Command regional headquarters and other military units in Qatar.

Qatar is a wealthy country, with multi-billion dollar export opportunities. With
embassy support, U.S. exports have grown by 600 percent in 5 years, and have
enjoyed particular successes in the energy, aviation, and education sections.

The embassy’s public diplomacy was noteworthy, especially considering the conser-
vative, relatively closed nature of Qatari society and the concentration of decision-
making among a small group of officials. The embassy made good use of Middle
East Partnership Initiative programs to develop partnerships with local nongov-
ernmental organizations. Although the embassy had a productive relationship with
the Qatari-owned Al Jazeera broadcasting network, OIG recommended that the
Department clarify the embassy’s role and create an analytic capability to assess
Al Jazeera’s reporting. OIG also recommended that the Department and embassy
formulate a plan to replace the current, short-term chancery lease with a long-term
lease, lease-purchase, or acquisition agreement.




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   39
                     BEST PRACTICE: Mobile Library Visits to Schools

                     Issue: Young Qataris have limited exposure to American culture and are reluc-
                     tant to participate in embassy-sponsored events.
                     Response: The public affairs section developed a mobile library program that
                     delivers two book collections to high schools throughout Doha. The schools
                     appreciate this service and there is a waiting list for these visits, which are
                     made at little cost to the U.S. Government. Mobile library visits are frequently
                     coordinated to coincide with embassy donations of book collections containing
                     classics of American literature. An embassy representative often participates in
                     these visits and speaks on American themes to audiences that would otherwise
                     have little or no contact with American culture.
                     Result: Hundreds of Qataris now have access to American literature and an
                     opportunity to interact with Americans.




     Compliance Follow-up Review of Embassy Baghdad, Iraq (ISP-C-11-08A)
     Embassy Baghdad complied with most of the recommendations from the 2009 inspec-
     tion. Embassy leadership had rotated twice since the 2009 inspection, as had most
     positions at all levels. Despite turnover, the management section had made great strides,
     although rightsizing continued to be an issue. The special immigrant visa program
     was underutilized and required review. Concerns persisted about the management of
     Baghdad’s large security vehicle fleet.
     The timing of this review coincided with a critical stage in the evolution of the U.S.
     presence in Iraq, as the mission was preparing for the U.S. military’s full withdrawal
     from Iraq in December 2011, whereupon DS will assume full responsibility for the
     safety and security of U.S. civilians in Iraq. The embassy had taken impressive steps
     to ramp up transition planning, but Washington needed to provide clearer and more
     timely, high-level focus and policy guidance. The transition must be coordinated among
     all players, including the White House. OIG recommended establishing a high-level
     coordinator position with a full-time staff and Department backing to oversee the
     detailed planning needed.
     The Department planned to create two consulates and two temporary posts in Iraq’s
     provinces to help mitigate and mediate the Arab/Kurdish and Shi’a/Sunni conflicts.
     OIG questioned whether the U.S. temporary provincial presence could be expected
     to resolve Iraq’s centuries-old ethnic and religious rifts. Also, the costs of establishing
     and operating this civilian provincial presence would be enormous. OIG questioned
     whether the U.S. Government was sufficiently weighing the costs, security, and benefit
     of supporting mission personnel outside Baghdad. Other questions included whether
     U.S. personnel in Iraq could have a safe and secure work environment without U.S.
     military involvement, and whether the military-to-civilian transition timetable could be
     maintained.



40              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
Inspection of Embassy Tel Aviv, Israel (ISP-I-11-31A)
Embassy Tel Aviv forged productive relationships with senior Israeli officials across a
wide range of important issues, adding significant value to one of the United States’
most sensitive bilateral relationships. The embassy worked closely and constructively
with the Special Envoy for Middle East Peace to support Israeli-Palestinian peace
negotiations but was frustrated by a lack of clarity about the role it was supposed to
play. OIG recommended that the mission focus on supporting negotiations through
improved political reporting on domestic factors influencing the Israeli Government’s
positions.

The volume of official visitors to Embassy Tel Aviv was so great that it interfered
with essential business. The mission needed to carry out a comprehensive analysis of
its procedures for supporting visitors in both the management and policy sections to
identify the best way to distribute workloads and allocate resources for this important
function.

A well-managed program of loan guarantees helped Israel stabilize a temporary
economic crisis at low cost to U.S. taxpayers. Having accomplished its purpose, the
program was no longer needed, and OIG recommended that the embassy begin
planning for an orderly end to the program in 2011, as envisioned in the original
legislation.


Inspection of Consulate General Jerusalem (ISP-I-11-34A)
Consulate General Jerusalem does not function as a constituent post of Embassy Tel
Aviv but as an independent, quasi-diplomatic mission whose primary focus is on U.S.
Government relations with the Palestinians. Despite the cost and difficulty of main-
taining diplomatic contacts when its officers must be accompanied to most meet-
ings by armed guards, the consulate has built relationships of trust with Palestinian
leaders in the West Bank and effectively advised U.S. policymakers on developments
there, significantly contributing to U.S. foreign policy efforts in the region.

A program to equip and train a Palestinian security force has readied 6 of a planned
10 battalions and helped build institutions that would be needed by a future
Palestinian state. A new U.S. security coordinator was moving to correct past failures
to coordinate this work with other U.S. Government activities. Steps to normalize
procedures and reduce administrative costs for this successful program were also
necessary. OIG underscored the need for training in security to be complemented
by more training in the criminal justice sector and the rule of law. INL established a
large new office in Jerusalem to coordinate this effort.

Staffing in Jerusalem had increased by 67 percent since the last OIG inspection, but
expansion of facilities was constrained by U.S. legislation and political considerations.


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   41
     The consulate made innovative efforts in some areas to relieve this burden, but
     needed to reach a shared understanding with all interested parties about one key
     facility.


       Joint Issues in the Inspections of Embassy Tel Aviv and Consulate
       General Jerusalem (ISP-I-11-35)
       Relations between Embassy Tel Aviv and Consulate General Jerusalem were much
       improved. In spite of lingering areas of confusion or rivalry, OIG found a better picture
       of coordination than expected and urged the two missions to institutionalize this atmo-
       sphere and create an ongoing culture of cooperation.
       Notwithstanding their independent responsibilities and separate needs, Embassy Tel
       Aviv and Consulate General Jerusalem shared a common interest in a wide range of
       support and other areas. OIG noted that both missions could achieve greater efficiency
       and realize significant savings by combining services in some administrative, financial,
       communications, and other areas. OIG recommended greater use of joint reporting
       cables to minimize parochial perspectives in reporting on Israeli-Palestinian issues and
       underscored the need for Embassy Tel Aviv to request that the Israeli Government ease
       the restrictions on local employee staff residents in the West Bank. OIG also identified
       problems with the local compensation plan shared by Consulate General Jerusalem and
       Embassy Tel Aviv that negatively affected the financial well-being and health care of
       locally employed staff and required joint efforts by both missions to resolve.




     BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS


     Inspection of Embassy Colombo, Sri Lanka (ISP-I-11-02A)
     An experienced Ambassador led Embassy Colombo, while most section chiefs and
     agency heads were serving in their positions for the first time. This experience deficit
     presented a challenge that the Ambassador and DCM worked to address as a result
     of the inspection. This mix of experience levels was also notable in the manage-
     ment section, where customer service was an issue. Training was recommended as an
     important part of the solution.

     The embassy had a pressing need to consolidate embassy operations in a new facility,
     and site selection was underway. The decision rested with the Department, which
     recognized that absence of a decision would delay commencement of the project
     beyond the projected 2013 start date.




42                Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
In stark contrast to the last inspection, the consular section had excellent morale.
Visa fraud, especially in immigrant visas, was high. OIG supported the embassy’s
request for an assistant regional security officer-investigations position to strengthen
its fraud prevention capabilities.


Inspection of Embassy Kathmandu, Nepal (ISP-I-11-05A)
From July 2009 to April 2010, a series of chargés d’affaires capably led Embassy
Kathmandu, but lack of consistency at the top resulted in a reduction in mission
cohesion and focus. The mission’s goal-focused working groups were less able to
administer interagency communication and cooperation than before. The new
Ambassador was committed to reviewing and reviving the program.

The mission made necessary and innovative strides in earthquake preparedness,
including having an alternate command center that is a model of excellence, provid-
ing awareness information to newcomers and American citizens, and holding regular
emergency drills. The mission’s success on this tactical level is impressive, but it is
also a necessity. Embassy leaders developed a big picture strategy that addressed the
many disparate aspects of dealing with a post-quake situation.

Embassy Kathmandu is at the forefront of greening initiatives in the Bureau of South
and Central Asian Affairs. By investing in energy-saving technology, solar power,
electric cars, and rainwater harvesting, the embassy cut energy use and saved thou-
sands of dollars.

The public affairs (PA) section established a dynamic network of American Corners
at strong partner institutions with all mission elements engaged. The section was
carrying out innovative public diplomacy activities, including an identified best prac-
tice “English by Radio” program and what is, for Nepal, a groundbreaking Muslim
outreach effort.




PROGRAM AND REQUESTED REVIEWS

Review of the President’s Emergency Plan for AIDS Relief (PEPFAR)
at Select Embassies Overseas (ISP-I-11-07)
As part of the coordinated plan for oversight of the PEPFAR program, OIG
conducted a review to determine how embassies were fulfilling their responsibilities
to coordinate, direct, and support that program. OIG inspectors visited Embassies
Santo Domingo, Phnom Penh, and Hanoi, as well as Consulate General Ho Chi


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   43
     Minh City. In addition, OIG sent a questionnaire to 30 embassies that received
     the largest amount of PEPFAR funds. The review considered program oversight by
     embassy officials and staff, including their role in policy and program implementa-
     tion; the effectiveness of mission support; the implications for program sustainability;
     and any current and anticipated challenges.

     Progress had been made since OIG’s 2009 report; however, OIG noted continuing
     concerns for some of the issues and recommendations contained in the earlier review,
     including the need for greater interagency cooperation, the importance of PEPFAR
     coordinators, the proliferation of competing brands or logos for the PEPFAR
     program overseas, and the continued burden of required reporting.

     The integration of PEPFAR with the Obama Administration’s GHI also had signifi-
     cant logistic, financial, and humanitarian implications for PEPFAR as it transitioned
     from an emergency program to a more sustainable one, by expanding cooperation
     with host-country governments through the development of partnership frameworks.
     Although the chiefs of mission at the four posts that the OIG inspectors visited,
     as well as the 26 other posts out of the 30 surveyed by questionnaire, all voiced
     enthusiasm about GHI’s goals, they also expressed anxiety about how GHI will be
     implemented, how it will relate to PEPFAR and vice versa, and whether host coun-
     tries will have the necessary resources and infrastructure to fund and maintain HIV/
     AIDS programs. Chief among their concerns was the fate of more than 2.5 million
     people who were depending on the United States for antiretroviral drugs. This enor-
     mous challenge of transitioning PEPFAR to a sustainable program will need to be
     addressed over the medium term, perhaps before the current reauthorization expires
     in September 2013.


     Response to Congressional Inquiry on Department Leadership’s Role
     in Freedom of Information Act Processes (ISP-I-11-09)
     In response to a letter dated August 23, 2010, from Senator Charles E. Grassley of
     Iowa and Representative Darrell Issa of California, OIG conducted a special inquiry
     to establish whether Department political appointees obstruct the release of informa-
     tion or otherwise influence the FOIA process. The Bureau of Administration Office
     of Government Information Services Office of Information Programs and Services
     (A/GIS/IPS) has responsibility for processing the Department’s FOIA requests.
     OIG reviewed FOIA procedures and standard operating procedures and carried out
     confidential interviews with Department employees in A/GIS/IPS and several other
     bureaus. OIG found no indication that Department political leadership approves,
     obstructs, or otherwise unduly influences the Department’s processing of FOIA
     requests.




44               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
Review of the Use of Social Media by the Department of State
(ISP-I-11-10)
The review of the Department’s use of social media found that embassies actively
used social media to reach a younger audience; however, maintaining a vibrant,
dynamic social media program requires significant staff commitment. OIG recom-
mended that the Department remind embassies of the requirements in the new
Foreign Affairs Manual subchapter on social media, including Section 508 compli-
ance and dealing with fan postings containing promotional or objectionable material.
OIG also recommended that embassies link their social media sites to one another
and to the Department’s Web site.


Inspection of Department-Required and Congressionally Mandated
Reports: Assessment of Resource Implications (ISP-I-11-11)
OIG established that there was no authoritative, comprehensive list of the
Department’s Congressionally mandated and Department-required reports. The
Bureau of Legislative Affairs tracked 310 Congressionally mandated reports to be
submitted in FY 2010. The Bureau of Administration separately tracked 108 recur-
ring reports required by the Department. Neither bureau was exhaustive in listing
reports that involved a commitment of personnel resources.

Most Congressionally mandated reports submitted by the Department were based
on content from routine embassy reporting, and required little extra input from the
field. However, the Human Rights Report, Trafficking in Persons Report, International
Narcotics Control Strategy Report, and International Religious Freedom Report required
significant additional resources from both Washington and the field.

Instructions for Congressionally mandated and Department-required reports are
often arduously long and detailed. The reports themselves became cumbersome in
detail and length. There was also considerable overlap, redundancy, and duplication
among Congressionally mandated reports. The Department did not document the
cost of producing Congressionally mandated and Department-required reports. More
precise quantification of the resources involved in preparing, editing, and submit-
ting those reports would enhance the Department’s justification for and allocation of
resources.

OIG determined that more concise reports would prove more effective, and recom-
mended that the Department work with Congress to modify its current “one size
fits all” approach to reporting, to include providing consideration for the size of a
country or the magnitude of an issue. Reporting goals should reinstitute flexibility.
OIG also found that reports could be made more efficient by reducing duplication in
content through techniques such as using hyperlinks to existing or applicable reports.



            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   45
     Cyber Security Review of Embassy Ottawa, Canada (ISP-I-11-12)
     OIG assessed the cyber security posture of Embassy Ottawa and found that the
     embassy complied with the majority of security controls within Federal cyber security
     regulations and guidelines. OIG’s assessment covered the Consensus Audit Guidelines
     controls and found deficiencies in several areas, including account monitoring
     and control, wireless device control, and penetration tests. OIG also identified an
     additional information security area pertaining to unsecured devices that required
     Embassy Ottawa’s attention. OIG made recommendations to address these deficien-
     cies and provided embassy personnel with copies of technical assessment reports
     produced during the review.


     Cyber Security Review of Embassy Kingston, Jamaica (ISP-I-11-13)
     OIG assessed the cyber security posture of Embassy Kingston and found that
     the embassy complied with the majority of security controls within Federal cyber
     security regulations and guidelines. OIG’s assessment covered the Consensus Audit
     Guidelines controls and found deficiencies in numerous areas, including controlled
     use of administrative privileges, account monitoring and control, and inventory of
     authorized and unauthorized devices and software. OIG also identified other infor-
     mation security areas that required Embassy Kingston’s attention, including issues
     with secure configuration, physical security, and the handling of ISSO responsibili-
     ties. OIG made recommendations to address these deficiencies and provided embassy
     personnel with copies of technical assessment reports produced during the review.


     Review of Crisis and Emergency Planning Application (ISP-I-11-14)
     OIG conducted a study to assess the current worldwide status of the crisis and emer-
     gency planning application (CEPA) and found that embassy senior management had
     not, in many cases, provided sufficient leadership in its implementation or mainte-
     nance. Several posts had not completed their initial CEPA input or were delinquent
     in their required annual updates. OIG made recommendations to the geographical
     bureaus to address these deficiencies.


     Inspection of the Regional Consular Officer and Consular
     Management Assistance Team Programs (ISP-I-11-18)
     The Regional Consular Officer (RCO) and the Consular Management Assistance
     Team (CMAT) programs were highly successful in providing in-depth functional
     expertise and managerial advisory support to individual consular sections and by
     extension to mission management. However, OIG made recommendations for
     management improvements such as additional travel expenditure oversight, better



46              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
codified RCO reporting guidance, and implementation of follow-up procedures to
ensure compliance with the recommendations in RCO and CMAT reports.


Review of Department of State Activities Regarding Shipwreck
Salvage Claim (ISP-I-11-36)
OIG found no evidence to support an allegation reported in a local newspaper that
the Department offered to support the Government of Spain’s claim to artifacts
discovered by an American shipwreck salvage company in exchange for Spain’s return
of a high-value painting to a U.S. family that had filed a Holocaust restitution claim.
The team conducted a detailed review of internal Department documents and held
interviews with numerous officials and employees involved with each case. All infor-
mation confirmed that the two disputes have always been, and remain, unconnected.
A quid pro quo arrangement with Spain was never considered as a way to resolve
these two distinct disputes.




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   47
48   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
INVESTIGATIONS


CONTRACT FRAUD

OIG conducted an investigation of a Department contractor and its subcontractor who
grossly overcharged for work performed on a major Department of State contract. The
contract, valued at more than $1.7 billion, was to recruit U.S. police officers, provide
them with developmental training, and equip them to participate in international
peacekeeping operations, including operations in Iraq. The investigation determined
that the contractor submitted inflated claims for the construction of container camps
at various locations in Iraq. Furthermore, the subcontractor was determined to
have sought reimbursement for danger pay that it falsely claimed to have paid its
U.S. expatriate employees working in Iraq. On March 22, 2011, the contractor and
subcontractor entered into separate civil settlements with the Department of Justice
and agreed to repay the government a total of $8,710,000 in damages ($7,700,000 by
the contractor and $1,010,000 by the subcontractor). (C2007-005)



BRIBERY AND KICKBACKS

OIG conducted a joint investigation, with the Special Inspector General for Iraq
Reconstruction and the Defense Criminal Investigative Service, of a Department
employee assigned to Iraq who solicited bribes and kickbacks from vendors in
exchange for the award of Department contracts. The investigation determined
that the employee accepted a large number of payments from a company that was
awarded a Department contract and that the contract was inflated in cost by the
amount received by the subject. On October 16, 2009, the subject was arrested. On
February 28, 2011, the subject agreed to plead guilty in a Criminal Information to
one count of wire fraud conspiracy and to pay $106,800 in restitution. (C2009-063)



FALSE STATEMENTS

OIG investigated a Department employee who provided false statements during a
prior subject interview conducted by OIG and DS special agents in January 2006.
The investigation concerned the employee’s acceptance of money and other gifts
in exchange for the issuance of visas while he was a consular officer assigned to an


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   49
     embassy. On November 23, 2010, the employee pleaded guilty to providing a materi-
     ally false statement to law enforcement officers concerning his fraudulent issuance of
     visas. The case was prosecuted by the U.S. Department of Justice, Public Integrity
     Section, through the U.S. District Court for the Eastern District of Virginia. On
     February 11, 2011, the former employee was sentenced to 1 year supervised probation,
     $1000 fine (to be paid immediately), and a $100 special assessment. (C2010-077)



     VISA FRAUD

     OIG conducted an investigation, based upon information provided by U.S.
     Immigration and Customs Enforcement (ICE) of a business that was suspected of
     committing H-1B visa fraud. The ICE Benefit Fraud Unit received complaints that
     the owners of the business used a fraudulent IT company to sponsor themselves and
     others for H-1B visas, which are usually reserved for occupations in the technol-
     ogy sector. The investigation determined that the owners were actually running a
     restaurant chain and a grocery store. On January 13, 2011, one of the owners pleaded
     guilty to conspiracy to commit visa fraud and on February 10, 2011, was sentenced in
     the U.S. District Court for the Eastern District of Virginia to 1 month home deten-
     tion, 2 years’ supervised probation, fined $5,000, and ordered to pay $100 in court
     costs. Arrest warrants were issued for the other two owners, who fled U.S. jurisdic-
     tion. (C2009-070)

     OIG conducted a joint investigation with ICE and DS after ICE determined that a
     husband and wife, both contract employees of the Department, purchased their natu-
     ralization certificates from a corrupt Department of Homeland Security employee
     and subsequently applied for and received U.S. passports. The investigation deter-
     mined that one of the subjects removed Department of State computer equipment
     from his office and took it to his residence without authorization. Both contract
     employees were terminated from employment with the Department. On March 17,
     2011, both subjects were indicted in the U.S. District Court for the Eastern District
     of Virginia on charges of naturalization fraud, bribery, passport fraud, and misuse of
     a government computer, and both have been arrested. (C2010-071)



     FALSE CLAIMS

     OIG conducted an investigation of two Department employees who submitted false
     travel claims for reimbursement of official travel. The two employees shared a hotel
     room and taxi fare while on official travel, but each submitted a separate claim for
     the full cost of the hotel room and the taxi fare. The total amount of the false claim
     made by the two employees was approximately $1,500. On October 22, 2010, the


50               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
Bureau of Human Resources (HR) notified OIG that it was proposing to suspend
both employees without pay for 26 days. (C2010-040 & C2010-041)



EMPLOYEE MISCONDUCT

OIG conducted an investigation of a Department employee who was falsifying her
time and attendance records and engaging in unauthorized outside employment.
The investigation determined that the employee had been doing work for her outside
employer on her government computer. On October 4, 2010, HR notified the
employee that she was being suspended for 45 days without pay. (C2008-090)

OIG conducted an investigation of a Department employee who, as the chairman
of an awards committee, intervened in the process to get two performance awards
approved for himself and his wife, who was also a Department employee. The
approval was made without the knowledge of the other committee members. On
October 29, 2010, HR proposed a 3-day suspension for the employee. (C2010-023)




FOLLOW-UP ACTIONS

EMBEZZLEMENT

OIG conducted an investigation of a Jordanian national employee of the U.S.
Embassy in Baghdad, who set up an email account to control the transfer of funds
that were to be paid for a contract at the embassy. He then used that email account
to direct the deposit of funds to his wife’s bank account. In total, $243,416 was
funneled into the bank account of the subject’s wife. On August 16, 2010, OIG
agents arrested the subject. On February 2, 2011, a jury in the U.S. District Court
for the Eastern District of Virginia delivered a guilty verdict on two counts of theft
of public money and one count of engaging in acts affecting a personal financial
interest. Sentencing is scheduled for April 8, 2011. (See OIG Semiannual Report,
April 1, 2010, to September 30, 2010, p. 51.) (C2010-037)




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   51
     PASSPORT FRAUD

     OIG received a request for investigative assistance from the Inspector General’s
     Office for the State of South Carolina in the matter of an escaped convict who had
     obtained a fraudulent passport and was residing in the state of New York. OIG’s
     investigation confirmed that the escapee had fraudulently obtained a passport by
     lying about his identity. On March 31, 2010, the subject surrendered himself to OIG
     agents and was arrested. On May 11, 2010, the fugitive was indicted for provid-
     ing a False Statement in Application and Use of a Passport, and he pleaded guilty
     to that charge on June 22, 2010. On March 22, 2011, the subject was sentenced to
     5 years’ supervised probation and a $100 assessment in the U.S. District Court for
     the Eastern District of New York. (See OIG Semiannual Report, April 1, 2010, to
     September 30, 2010, p. 54.) (C2010-034)



     PASSPORT INFORMATION ELECTRONIC RECORDS SYSTEM
     (PIERS) INQUIRY

     On March 20, 2008, Under Secretary of State for Management Patrick F. Kennedy
     requested that OIG conduct an investigation after news media reports indicated that
     the passport files of three presidential candidates had been improperly accessed by
     three different Department contract employees on three different occasions through
     PIERS. OIG subsequently received additional information that improper accessing
     of PIERS records was widespread, and involved many Department employees and
     contractors. The following are actions that have resulted from OIG investigations
     involving this issue during this semiannual reporting period, which include three
     separate criminal prosecutions:

        •	 OIG conducted an investigation on a Department employee who was
           improperly accessing PIERS to view the records of prominent athletes and
           entertainers. The investigation determined that the contract employee elec-
           tronically accessed through PIERS 150 different passport applications with-
           out authorization. On August 25, 2010, the subject was indicted on four
           felony counts: one count of Exceeding Authorized Computer Access; one
           count Obstruction of Agency Proceeding; and two counts of False Statements
           (made to OIG agents). On November 5, 2010, the subject pleaded guilty to
           one count of making False Statements before the U.S. District Court of New
           Hampshire. On February 9, 2011, the subject was sentenced to 18 months’
           probation and 100 hours of community service. The subject resigned from
           the Department effective December 3, 2010. (C2008-078)




52              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
    •	 OIG conducted an investigation on a Department employee who was
       improperly accessing PIERS to view the records of prominent athletes and
       entertainers. The investigation determined that the contract employee elec-
       tronically accessed through PIERS 80 different passport applications without
       authorization. On January 11, 2011, the employee pleaded guilty in U.S.
       District Court to one count of unauthorized computer access. Sentencing is
       scheduled for April 21, 2011. (C2009-045)

    •	 OIG conducted an investigation on a Department employee who was
       improperly accessing PIERS to view of the records of prominent athletes and
       entertainers. The investigation determined that the contract employee elec-
       tronically accessed through PIERS 54 different passport applications without
       authorization. On March 9, 2011, the employee pleaded guilty in a Criminal
       Information filed in U.S. District Court to one count of unauthorized
       computer access. Sentencing is scheduled for August 5, 2011. (C2009-073)

OIG’s pursuit of PIERS-related investigations is ongoing. Because of the systemic
weaknesses identified by OIG during the overall PIERS inquiry, the Department
has enacted greater safeguards to protect the privacy of electronically stored passport-
related information (See OIG Semiannual Report, October 1, 2009, to March 31, 2010,
pp. 70-71.)




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   53
54   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 1: DEPARTMENT OF
STATE INVESTIGATIVE ACTIVITIES

   Preliminary Inquiries
    Opened                                                                                               41
    Closed                                                                                               32

   Investigations
    Opened                                                                                            50
    Closed                                                                                            41
    Pending (3/31/11)                                                                                149

   Criminal Actions
    Referrals for Prosecution                                                                            24
    Indictments/Informations                                                                             11
    Convictions                                                                                           7
    Sentencings (Months Imprisonment)                                                                     1
    Sentencings (Months Probation)                                                                       96

   Civil Actions
    Civil Referrals                                                                                       8
    Civil Judgments                                                                                       2

   Administrative Referrals
    Referrals for Personnel Action                                                                        3
    Suitability Referrals to DS                                                                           4
    Contractor Suspensions/Debarment Referrals                                                            5

   Administrative Actions
    Removals                                                                                              7
    Suspensions                                                                                           5
    Reprimands/Admonishments                                                                              2
    Contractor Suspensions/Debarment Actions                                                              0

   Monetary Recoveries
    Criminal Fines/Recoveries                                                                 $6,300
    Civil Recoveries                                                                      $8,710,000
    Administrative Recoveries                                                                     $0
    Total Investigative Recoveries                                                        $8,716,300




     Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011        55
56   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 2: REPORTS ISSUED

Report Number                Report Title

AUD/CG-11-12                 Audit of Funding Provided by the American Recovery and Reinvestment Act
                             for the Foreign Service Institute National Foreign Affairs Training Center
AUD/CG-11-13                 Audit of Department of State Compliance With Federal Procurement Data
                             System - Next Generation Reporting Requirements of the American Recovery
                             and Reinvestment Act
AUD/FM-11-01                 Independent Accountant’s Report on the Application of Agreed-Upon
                             Procedures: Retirement, Health Benefits, and Life Insurance Withholdings/
                             Contributions and Supplemental Semiannual Headcount Report Submitted
                             to the Office of Personnel Management
AUD/FM-11-02                 Independent Auditor’s Report on the U.S. Department of State 2010 and
                             2009 Special-Purpose Financial Statements
AUD/FM-11-03                 Independent Auditor’s Report on the U.S. Department of State 2010 and
                             2009 Financial Statements
AUD/FM-11-04                 Management Letter Related to the Audit of the U.S. Department of State
                             2010 Financial Statements
AUD/FM-11-15                 Independent Review of the U.S. Department of State Accounting and
                             Authentication of FY 2010 Drug Control Funds and Related Performance
                             Report
AUD/IT-11-07                 Review of Department of State Information Security Program
AUD/SI-11-10                 Audit of Sources and Uses of Global HIV/AIDS Initiative Global Health and
                             Child Survival Funds Related to the President’s Emergency Plan for AIDS
                             Relief (PEPFAR) for FYs 2007 and 2008
AUD/SI-11-11                 Audit of Department of State Actions Regarding the December 25, 2009,
                             Attempted Terrorist Bombing of Northwest Airlines Flight 253
ISP-C-11-08A                 Compliance Follow-Up Review of the Inspection of Embassy Baghdad, Iraq

ISP-I-11-02A                 Inspection of Embassy Colombo, Sri Lanka
ISP-I-11-03A                 Inspection of Embassy Bangkok and Consulate General Chiang Mai, Thailand

ISP-I-11-04A                 Inspection of Embassy Doha, Qatar
ISP-I-11-05A                 Inspection of Embassy Kathmandu, Nepal
ISP-I-11-06                  Inspection of Bureau of Diplomatic Security/Countermeasures Directorate
ISP-I-11-07                  Review of the President’s Emergency Plan for AIDS Relief (PEPFAR) at
                             Select Embassies Overseas




              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   57
     Report Number                 Report Title

     ISP-I-11-09                   Response to Congressional Inquiry on Department Leadership’s Role in
                                   Freedom of Information Act Processes
     ISP-I-11-10                   Review of the Use of Social Media by the Department of State
     ISP-I-11-11                   Inspection of Department-Required and Congressionally Mandated Reports:
                                   Assessment of Resource Implications
     ISP-I-11-12                   Cyber Security Review of Embassy Ottawa, Canada
     ISP-I-11-13                   Cyber Security Review of Embassy Kingston, Jamaica
     ISP-I-11-14                   Review of Crisis and Emergency Planning Application
     ISP-I-11-15A                  Inspection of Embassy Athens, Greece
     ISP-I-11-16A                  Inspection of Embassy Valletta, Malta
     ISP-I-11-17A                  Inspection of Embassy Luxembourg, Luxembourg
     ISP-I-11-18                   Inspection of the Regional Consular Officer and Consular Management
                                   Assistance Team Programs
     ISP-I-11-19A                  Inspection of Embassy Copenhagen, Denmark
     ISP-I-11-21A                  Inspection of Embassy Dili, Timor-Leste
     ISP-I-11-22                   Inspection of Bureau of European and Eurasian Affairs
     ISP-I-11-23A                  Inspection of Embassy The Hague and Consulate General Amsterdam,
                                   the Netherlands
     ISP-I-11-24A                  Inspection of Embassy Jakarta, Indonesia
     ISP-I-11-27A                  Inspection of Embassy Oslo, Norway
     ISP-I-11-28A                  Inspection of Embassy Reykjavik, Iceland
     ISP-I-11-30A                  Inspection of Embassy Stockholm, Sweden
     ISP-I-11-31A                  Inspection of Embassy Tel Aviv, Israel
     ISP-I-11-34A                  Inspection of Consulate General Jerusalem
     ISP-I-11-35                   Joint Issues in the Inspection of Embassy Tel Aviv and Consulate General
                                   Jerusalem
     ISP-I-11-36                   Congressional Request for Review of Department of State Activities Regarding
                                   Shipwreck Salvage Claim
     MERO-I-11-01                  The Bureau of Population, Refugees and Migration’s Internally Displaced
                                   Persons Program in Pakistan
     MERO-I-11-02                  PAE Counternarcotics Operations and Maintenance Support in Afghanistan
     MERO-I-11-05                  PAE Operations and Maintenance Support at Embassy Kabul, Afghanistan
                                   Performance Evaluation
     MERO-I-11-06                  Performance Evaluation of Department of State Contracts to Assess the Risk
                                   of Trafficking in Persons Violations in Persian Gulf States
     MERO-I-11-07                  Review of Department of State contracts for Trafficking in Persons
                                   (TIP)-Levant



58                  Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
CLASSIFIED REPORTS ISSUED

The following reports are summarized in the classified annex:

 Report Number                 Report Title

 ISP-S-11-05A                  Classified Annex to the Inspection of Embassy Kathmandu, Nepal
 ISP-S-11-08A                  Classified Annex to the Compliance Follow-up Review of Embassy Baghdad,
                               Iraq
 ISP-S-11-15A                  Classified Annex to the Inspection of Embassy Athens, Greece
 ISP-S-11-16A                  Classified Annex to the Inspection of Embassy Valletta, Malta
 ISP-S-11-17A                  Classified Annex to the Inspection of Embassy Luxembourg, Luxembourg
 ISP-S-11-19A                  Classified Annex to the Inspection of Embassy Copenhagen, Denmark
 ISP-S-11-20                   Review of the Department of State’s Role in the Detainee Transfers,
                               Assurances, and Monitoring
 ISP-S-11-21A                  Classified Annex to the Inspection of Embassy Dili, Timor-Leste
 ISP-S-11-23A                  Classified Annex to the Inspection of Embassy The Hague and Consulate
                               General Amsterdam, the Netherlands
 ISP-S-11-24A                  Classified Annex to the Inspection of Embassy Jakarta, Indonesia
 ISP-S-11-27A                  Classified Annex to the Inspection of Embassy Oslo, Norway
 ISP-S-11-28A                  Classified Annex to the Inspection of Embassy Reykjavik, Iceland
 ISP-S-11-30A                  Classified Annex to the Inspection of Embassy Stockholm, Sweden
 ISP-S-11-31A                  Classified Annex to the Inspection of Embassy Tel Aviv, Israel
 ISP-S-11-34A                  Classified Annex to the Inspection of Consulate General Jerusalem




               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   59
60   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

Table 1: Inspector General Issued Reports With Questioned Costs
                                                            Number            Questioned              Unsupported
Type of Report                                                of            Costs (Dollars           Costs (Dollars in
                                                            Reports         in Thousands)              Thousands)

A.	 For which no management decision has                         10                   $167,317                  $74,614
    been made by the commencement of the
    reporting period
B.	 Which were issued during the reporting
    period:

    Audits
    Audit of Funding Provided by the American                    1                            $3                    $0
    Recovery and Reinvestment Act for the
    Foreign Service Institute National Foreign
    Affairs Training Center (AUD/CG-11-12)

    Evaluations
    Performance Evaluation of PAE Operations                     1                       $1,156                     $0
    and Maintenance Support at Embassy
    Kabul, Afghanistan (MERO-I-11-05)

    Total issued during this report period                       2                      $1,159                      $0
    Subtotals (A + B)                                           12                  $168,476                    $74,614

C.	 For which a management decision was
    made during the reporting period

    (i) dollar value of disallowed costs                         4                     $11,737                  $10,210
    (ii) dollar value of costs not disallowed                    2                         $76                      $73


D.	 For which no management decision has                         8                   $156,663                   $64,331
    been made by the end of the reporting
    period

    Reports for which no management                              7                   $155,507                   $64,331
    decision was made within 6 months of
    issuance




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011             61
     Table 2: Inspector General Issued Reports With Recommendations
     That Funds Be Put To Better Use
                                                                                        Number of               Dollars
     Type of Report
                                                                                         Reports            (in Thousands)

         A.	 For which no management decision has been made by                                 1                    $1,679
             the commencement of the reporting period

         B.	 Which were issued during the reporting period:

             Inspections
             Inspection of Embassy Bangkok, Thailand (ISP-I-11-03A)                            1                      $520
             Inspection of Embassy Athens, Greece (ISP-I-11-15A)                               1                      $100

             Total issued during this reporting period                                         2                     $620
             Subtotals (A + B)                                                                 3                    $2,299

         C.	 For which a management decision was made during                                                          $520
             the reporting period

             (i) dollar value of recommendations that were agreed to                           1                      $520
             by management
                  -	 based on proposed management action
                  -	 based on proposed legislative action

             (ii) dollar value of recommendations that were not                                0                       $0
             agreed to by management

         D.	 For which no management decision has been made by                                 1                    $1,779
             the end of the reporting period

             Reports for which no management decision was made                                 1                    $1,679
             within 6 months of issuance




62              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 4: RESOLUTION
OF REPORTS AND
RECOMMENDATIONS


SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL
ACTION

Report               Rec.      Report Title                                                                  First
Number               No.       Recommendation Summary                                                        Reported

AUD/CG-06-02                   Application of Agreed-Upon Procedures to George Mason                           2/06
                               University Awards
                       4       OIG recommended the Bureau of Educational and
                               Cultural Affairs grants officer:
                                •	 Ensure George Mason University follows
                                     through with proposed guidelines related to cost
                                     share;
                                •	 Require the University to provide supporting
                                     documentation for claimed cost share amounts
                                     totaling $354,248 for Grants ASMA-0324 and
                                     S-ECAAS-02-GR-251; and
                                •	 Reduce the grants accordingly, and require the
                                     University to reimburse applicable unmet cost
                                     share amounts.

AUD/IQO-07-20                  Review of DynCorp International, LLC, Contract                                  1/07
                               Number S-LMAQM-04-C-0030, Task Order 0338,
                               for the Iraqi Police Training Program Support (Joint
                               audit with the Special Inspector General for Iraq
                               Reconstruction)
                       2       OIG recommended the Office of Acquisitions
                               Management seek reimbursement from DynCorp
                               for the improperly authorized payment of $4.2
                               million that represents contractually unauthorized
                               work directed by the Iraqi Ministry of Interior. This
                               work included the relocation of the residential camp,
                               the manufacture of additional VIP trailers, and the
                               construction of an Olympic-sized swimming pool.




         Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011              63
     Report               Rec.      Report Title                                                                  First
     Number               No.       Recommendation Summary                                                        Reported

     AUD/IQO-07-48                  Accounting for Government-Owned Personal Property                               9/07
                                    Held by Selected Contractors in Afghanistan
                            1       OIG recommended the Department develop and
                                    implement policies and procedures to achieve compli-
                                    ance with FAR requirements for reviewing a contrac-
                                    tor’s property control system.
                            2       OIG recommended the Department take actions to
                                    address the $2.9 million in unallowable costs identified
                                    in this report, including:
                                      •	 Reconciling contract requirements to the prop-
                                           erty acquired and invoiced by the contractors
                                           for which they were reimbursed and determine
                                           whether property in excess of amounts specified
                                           in the contract or task order was required to ac-
                                           complish contract objectives.
                                      •	 Documenting the reconciliation and determina-
                                           tion, use them as the basis for approving the
                                           costs of any excess property deemed allowable,
                                           and issue a modification to the task order indi-
                                           cating the approval.
                                      •	 Resolving any unallowable costs associated with
                                           property that was determined to be unnecessary
                                           to the accomplishment of contract objectives.
                            3       OIG recommended the Department take the following
                                    steps to address the $25.5 million in unsupported costs
                                    indentified in this report:
                                      •	 Reconcile the property acquired and invoiced by
                                           the contractors for which they were reimbursed
                                           to the contractor’s property lists by obtaining and
                                           reviewing contractor documentation detailing
                                           the types and quantities of property acquired.
                                      •	 Determine whether the property was needed and
                                           consistent with contract requirements.
                                      •	 Resolve any unsupported allowable costs associ-
                                           ated with property that could not be supported
                                           with adequate documentation or was determined
                                           to be unnecessary to the accomplishment of
                                           contract objectives.
                            5       OIG recommended the Department evaluate its
                                    current structure for monitoring government property
                                    held by contractors, assess the benefits of creating a
                                    property administrator function, and use this evalua-
                                    tion to clearly define the authority and responsibility
                                    for property oversight for each member of its contract
                                    administration team.



64            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
Report                Rec.      Report Title                                                                  First
Number                No.       Recommendation Summary                                                        Reported

AUD/SI-07-27                    Audit of Emergency Preparedness at the Washington                               3/07
                                Metropolitan Facilities of the Department of State
                        2       OIG recommended the Bureau of Administration
                                ensure the Office of Emergency Management’s
                                Planning and Preparedness Division has sufficient
                                staffing to finalize 6 FAM 400, Office of Emergency
                                Management Program, and the proposed 6 FAH-1
                                H-100, Domestic Emergency Handbook, and ensure
                                the emergency preparedness policies and procedures
                                contained in these manuals are implemented and
                                enforced in a timely manner.

AUD/CG-07-37                    Independent Accountants’ Report on the Application of                           9/07
                                Agreed-Upon Procedures on Costs Claimed by Meridian
                                International Center Under Department of State
                                Cooperative Agreements
                        1       OIG recommended the Bureau of Educational and
                                Cultural Affairs (ECA):
                                 •	 Determine whether the Center’s use of the for-
                                      gone opportunity costs concerning the Center’s
                                      conference facilities constitutes an appropriate
                                      cost-share amount under the cooperative agree-
                                      ment.
                                 •	 Following this determination, as appropriate,
                                      require the Center to provide supporting docu-
                                      mentation for the claimed cost-share amounts or
                                      an alternative cost-sharing proposal.

AUD/CG-08-02                    Independent Accountants’ Report on the Application of                           1/08
                                Agreed-Upon Procedures on Costs Claimed by Young
                                Men’s Christian Association of Greater New York Under
                                Department of State Grants
                        4       OIG recommended that ECA require the Association
                                to substantiate the unsupported payroll costs or reim-
                                burse the Department for these costs.




          Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011              65
     Report               Rec.      Report Title                                                                  First
     Number               No.       Recommendation Summary                                                        Reported

     AUD/CG-08-32                   Independent Accountants’ Report on the Application of                           8/08
                                    Agreed-Upon Procedures on Indirect Cost Rates Proposed
                                    by Nacel Open Door, Inc.
                            3       OIG recommends that ECA require Nacel Open
                                    Door, Inc., to (a) establish appropriate policies and
                                    procedures to ensure that costs under the grants are
                                    adequately documented and accounted for in accor-
                                    dance with the applicable Office of Management and
                                    Budget circulars and (b) provide information so that
                                    ECA can make an appropriate determination on the
                                    unsupported costs of $94,524.

     AUD/IQO-09-25                  Audit of the Design and Construction of the New                                10/09
                                    Embassy Compound in Baghdad, Iraq
                            1       OIG recommends that the Contracting Officer,
                                    Bureau of Administration, Office of Logistics
                                    Management, attempt to recover $4.6 million from
                                    First Kuwaiti Trading and Contracting for the infra-
                                    structure contract to make the necessary corrections to
                                    the safe areas in the New Embassy Compound.
                            2       OIG recommends that the Contracting Officer,
                                    Bureau of Administration, Office of Logistics
                                    Management, attempt to recover $14 million for the
                                    housing, infrastructure, support facilities, and the
                                    chancery contracts from First Kuwaiti Trading and
                                    Contracting to perform the necessary design and retro-
                                    fit of seismic bracing in the New Embassy Compound.
                            4       OIG recommends that the Contracting Officer, Bureau
                                    of Administration, Office of Logistics Management,
                                    attempt to recover $1.7 million for contracts from First
                                    Kuwaiti Trading and Contracting for the housing, infra-
                                    structure, support facilities, and the chancery contracts
                                    so that the necessary repairs to the exterior walls and
                                    walkway and road surfaces can be made.
                            6       OIG recommends that the Contracting Officer,
                                    Bureau of Administration, Office of Logistics
                                    Management, attempt to recover approximately
                                    $500,000 from First Kuwaiti Trading and Contracting
                                    for the infrastructure contract to increase the pent-
                                    house size and air flow through the louvers of the
                                    Utility Building.




66            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
Report               Rec.      Report Title                                                                  First
Number               No.       Recommendation Summary                                                        Reported

                       7       OIG recommends that the Contracting Officer, Bureau
                               of Administration, Office of Logistics Management,
                               attempt to recover approximately $11 million from First
                               Kuwaiti Trading and Contracting for the infrastructure
                               contract to compensate the Department of State for
                               additional operating costs that will be incurred because
                               the configuration of the Utility Building/Generator
                               Plant was changed from the 10 2-megawatt configura-
                               tion to 18 1-megawatt generators.
                       8       OIG recommends that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover between $4.2 million
                               and $4.4 million from First Kuwaiti Trading and
                               Contracting for the infrastructure contract to correct
                               all deficiencies to the electrical wiring, control, and
                               distribution systems at the New Embassy Compound.
                       9       OIG recommends that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover an estimated
                               $500,000 from First Kuwaiti Trading and Contracting
                               for the infrastructure contract so that the necessary
                               functions can be added to the building automation
                               system at the New Embassy Compound.
                       10      OIG recommends that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover $4.6 million from
                               First Kuwaiti Trading and Contracting to correct fire
                               system deficiencies for the staff diplomatic apartments
                               ($3.5 million for the housing contract) and repair the
                               water main distribution system joints ($1.1 million for
                               the infrastructure contract).
                       11      OIG recommends that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover approximately $1.5
                               million from First Kuwaiti Trading and Contracting
                               for the infrastructure and housing contracts to correct
                               deficiencies in the plumbing traps at the New Embassy
                               Compound.
                       12      OIG recommends that the Contracting Officer,
                               Bureau of Administration, Office of Logistics
                               Management, attempt to recover approximately $33
                               million that was paid to First Kuwaiti Trading and
                               Contracting to perform and document the required
                               design work for the new embassy compound (NEC)
                               Baghdad contracts.



         Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011              67
      Report                Rec.      Report Title                                                                  First
      Number                No.       Recommendation Summary                                                        Reported
                              14      OIG recommends that the Contracting Officer,
                                      Bureau of Administration, Office of Logistics
                                      Management, attempt to recover approximately $3.8
                                      million for the housing, infrastructure, site facilities,
                                      and chancery contracts that First Kuwaiti Trading
                                      and Contracting did not perform or that it performed
                                      incorrectly related to commissioning activities.

      AUD/SI-10-23                    Audit of Allegations Pertaining to Contract With                               08/10
                                      DynCorp International for the Security Sector
                                      Transformation Project in South Sudan, Africa
                              3       OIG recommends that the Bureau of Administration,
                                      Office of Acquisitions Management, in coordination
                                      with the Bureau of African Affairs, offer DynCorp
                                      International additional reimbursement of $2.6
                                      million.




     SUMMARY OF AUDIT REPORTS WITHOUT MANAGEMENT
     DECISION FOR MORE THAN SIX MONTHS

     Report Number: AUD/CG-06-02
     Subject: Application of Agreed-Upon Procedures to George Mason University
     Awards
     Date Issued: February 24, 2006
     Reason for not being resolved: ECA was requested to respond to Recommendations
     1, 3, and 4 by April 21, 2010. On September 10, 2010, the Acting Division Director
     for ECA Grants requested that OIG send him any information pertaining to the
     recommendations so that he could “respond appropriately . . . on the status of the
     [recommendations].” However, OIG had not received a response as of the end of this
     reporting period. Therefore, the three recommendations remain unresolved.
     Projected date of resolution: September 2011.




68              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
SIGNIFICANT INSPECTIONS RECOMMENDATIONS PENDING
FINAL ACTION

Report                    Rec.      Report Title                                                                  First
Number                    No.       Recommendation Summary                                                        Reported

ISP-I-10-16                         Management Review of Youth Exchange Programs,                                  10/09
                                    Bureau of Educational and Cultural Affairs
                            1       OIG recommended ECA, in coordination with the
                                    Bureau of Administration and FSI, should revise as
                                    appropriate the current federal assistance curriculum to
                                    include compliance with internal and external regula-
                                    tory procedures for the conduct of oversight of youth
                                    exchange programs.

ISP-I-09-43                         Management Review of the Office of Historian, Bureau                           05/09
                                    of Public Affairs
                            13      OIG recommended the Bureau of Public Affairs (PA)
                                    establish and implement written guidance to the
                                    Deputy Assistant Secretary and the Director of the
                                    Office of the Historian that establishes lines of author-
                                    ity, frequent periodic reviews, attendance of each at
                                    staff meetings held by the other; and other approaches
                                    to encourage a clear chain of command with direct
                                    communication between the two offices.
                            22      OIG recommended that PA should design and imple-
                                    ment an orientation program in the Office of the
                                    Historian for new employees and contractors cover-
                                    ing such topics as Civil Service hiring procedures,
                                    rules, and regulations; and Department functions and
                                    activities.

ISP-I-09-34                         Inspection of the Bureau of Consular Affairs, Passport                         07/09
                                    Services
                            22      OIG recommended the Bureau of Consular Affairs
                                    initially certify all acceptance agents by assigning them
                                    individual identification numbers and subsequently
                                    require all acceptance facilities to recertify annually
                                    the names of the individuals trained and authorized to
                                    accept passport applications.
                            24      OIG recommended the Bureau of Consular Affairs
                                    create and maintain an integrated master database
                                    within the Travel Document Information System of all
                                    authorized acceptance facilities and agents.




              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011              69
      Report                    Rec.      Report Title                                                                  First
      Number                    No.       Recommendation Summary                                                        Reported

                                  27      OIG recommended the Bureau of Consular Affairs
                                          standardize the guidance for conducting adjudication
                                          audits, conduct a comprehensive error rate study, and
                                          create an action plan to reduce the overall error rate.
                                  45      OIG recommended the Bureau of Consular Affairs
                                          develop a passport fraud tracking system and order its
                                          deployment before the end of FY 2009.

      ISP-I-09-16                         The Executive Office, Bureau of Diplomatic Security                            04/09
                                  13      OIG recommended DS, in coordination with the
                                          Bureau of Administration, review and amend all
                                          contract documentation to include a full and complete
                                          description of services and tasks to be performed
                                          for the Office of the Chief Technology Officer and
                                          should institute benchmarks for evaluating contractor
                                          performance.

                                  24      OIG recommended DS, in coordination with
                                          the Bureau of Administration, should eliminate
                                          Diplomatic Security-developed program asset systems
                                          and convert their asset data to the Integrated Logistics
                                          Management System.




     SUMMARY OF INSPECTION REPORTS WITHOUT MANAGEMENT
     DECISION FOR MORE THAN 6 MONTHS

     Report Number: ISP-I-09-16
     Subject: Report of Inspection of the Executive Office, DS
     Date Issued: April 5, 2009
     Reason for Not Being Resolved: OIG recommended that DS abolish its space
     management division and transfer it to the Office of Real Property Management in
     the Bureau of Administration (A/OPR/RPM). DS did not concur with the recom-
     mendation and proposed an alternative solution; to coordinate and develop a memo-
     randum of agreement (MOA) with the A Bureau relating to space management
     functions. OIG, DS, and A/OPR/RPM are in the process of seeking consensus and
     resolution of the recommendation.
     Projected Date of Resolution: June 2011




70                  Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
Report Number: ISP-I-10-68
Subject: Implementation of a Process to Assess and Improve Leadership and
Management of Department of State Posts and Bureaus
Date Issued: June 29, 2010
Reason for Not Being Resolved: OIG recommended that the Department devise
and implement a feedback system to regularly assess post and bureau managers and
take appropriate measures to address and correct post and bureau leadership and
management deficiencies. OIG and the Department are in the process of achieving
resolution of the recommendation.
Projected Date of Resolution: April 2011


REVISED MANAGEMENT DECISIONS

None



MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS


Inspection of Embassy Bangkok, Thailand, and Consulate General
Chiang Mai (ISP-I-11-03)
The biggest management issue at Consulate General Chiang Mai was the Tarndong
Village housing compound, which consisted of eight four-bedroom and ten three-
bedroom American style leased houses, located in the suburbs approximately 30
minutes from the consulate compound. All of the houses were large and required
OBO’s approval of space waivers when small families or singles were assigned to
housing on the compound. As the staffing mix and residential security requirements
were changing, OIG recommended that Embassy Bangkok and OBO conduct a
cost-benefit analysis of maintaining the 18 leases on the Tarndong Village housing
compound. In response to the recommendation, the 18 leases were terminated at an
overall cost-savings in the amount of $520,000. Future residential housing needs in
Chiang Mai will be met with other leased properties at a more reasonable leasing cost.


Inspection of Department-Required and Congressionally Mandated
Reports: Assessment of Resource Implications (ISP-I-11-11)
Workload implications identified in 26 out of 80 OIG reports on inspected
embassies between 2007 and 2009, that the process of preparing and submitting
            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   71
     Congressionally mandated and Department-required reports imposes unduly heavy
     demands on limited personnel resources. Similar issues were raised by 19 additional
     embassies in response to an OIG cable survey that was conducted as a part of the
     assessment. OIG recommended that the Department consult with the Congress
     about submitting Congressionally mandated reports for specific countries in a revised
     format using less detail, hyperlinks to other online reports, or to previous still valid
     reports to eliminate duplication. OIG also recommended that the Bureau of Human
     Rights, Democracy and Labor and the Office to Monitor and Combat Trafficking
     in Persons create and implement a plan to have the data in their respective,
     Congressionally mandated reports cover the same time period to reduce the burden
     of report preparation on posts and bureaus.

     The Secretary convened the first-ever Global Chiefs of Mission Conference in
     Washington January 31 – February 4, 2011. Senior Department officials joined 177
     ambassadors, other chiefs of mission, and long-term charges d’affaires from overseas
     posts for a series of exchanges on U.S. foreign policy challenges, leadership skills,
     interagency coordination issues, and implementation of the Quadrennial Diplomacy
     and Development Review (QDDR). During the conference, the Secretary discussed her
     intention to consolidate and eliminate duplicative reporting requirements and to reduce
     the length of reports. Several measures were implemented by the Under Secretary for
     Political Affairs (P) and the Under Secretary for Democracy and Global Affairs (G)
     to reduce duplication and overlap of the Human Rights Report, the International
     Religious Freedom Report, and Trafficking in Persons Report that were incorporated
     in the revised instructional guidance sent to posts for the FY 2010 and FY 2011 report
     submissions. In addition, the Bureau of Legislative Affairs (H) has undertaken a
     detailed review of all reporting requirements and reports prepared by the Department
     to fulfill Congressional mandates. H continues to work with the Congress for agree-
     ment on a legislative fix to secure repeal of obsolete and/or duplicate reports.


     Review of the Crisis and Emergency Planning Application
     (ISP-I-11-14)
     The Crisis and Emergency Planning Application (CEPA), developed by DS in 2006
     is a computer-based application used by U.S. missions to prepare and update their
     emergency action plans. While the Department made progress in converting to this
     automated system, in many cases, embassy senior management did not provide suffi-
     cient leadership in the implementation or maintenance of CEPA. Among the 230
     posts required to use CEPA, OIG identified that 35 have not completed their initial
     CEPA submissions and 63 are delinquent in completing the required annual updates.
     OIG recommended that each of the six geographical bureaus oversee the completion
     of the emergency action plans by posts in their region. In response to the recommen-
     dation, four of the six geographical bureaus have reported significant compliance in
     overseeing the completion of the initial and annual updates to the emergency action
     plans for posts in their region using CEPA.

72               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
Inspection of Embassy Athens, Greece (ISP-I-11-15A)
Employees at Embassy Athens and Consulate General Thessaloniki have been receiv-
ing rest and recuperation (R&R) travel benefits since 2000. U.S. direct hires on
three-year assignments receive two R&Rs, and entry level officers (ELOs) on two-
year assignments receive one. The overall annual cost of funding R&R travel was
over $100,000. In lean times, this is an expense that can no longer be afforded to
employees assigned in Greece. Department regulations (3 FAH-1 H-3721.4) state that
all posts that receive R&R travel are required to submit documentation to the appro-
priate regional bureau executive every two years to justify continued eligibility. The
most recent justification from Embassy Athens and Consulate General Thessaloniki
was submitted 10 years ago. OIG recommended that the Bureau of European and
Eurasian Affairs (EUR) discontinue the R&R travel benefit for Mission Greece.
On March 14, 2011, the EUR-IO Executive Director disapproved Mission Greece’s
request for recertification of eligibility for R&R travel.


Inspection of Embassy Kabul, Afghanistan (ISP-I-10-32A)
The inspection reviewed a sample of employee travel vouchers and noted several
anomalies in addition to the inappropriate use of business class for rest and recuperation
travel by embassy staff. OIG recommended that Embassy Kabul: 1) revise, issue,
and implement an updated travel policy that requires supervisory authorization,
justification and documentation; 2) develop and implement procedures requiring
all travel authorizations to show the authorized itinerary and costs; and 3) identify
and approve cost-constructive routes for rest and recuperation travel, and document
all cost-constructive travel with the associated costs. In response to the three
OIG recommendations, Embassy Kabul implemented a revised travel policy on
November 24, 2010, to address the requirements of the recommendations.


Inspection of Embassy Tokyo, Japan, and Constituent Posts
(ISP-I-08-39A)
The alternate communication path for Embassy Tokyo was found to be totally reliant
on landlines at the time of the 2008 inspection. The loss of landlines in the event of
an emergency or natural disaster had resulted in a loss of the ability to communicate
with Embassy Tokyo in earlier earthquakes when the undersea cabling was severed.
OIG recommended that the Department establish an alternate communication
path for Embassy Tokyo that would not rely on landlines. In response to the recom-
mendation, the Bureau of Information Resource Management (IRM) reaffirmed
that Embassy Tokyo and each constituent posts are provided with two pathways for
communication, Iridium satellite phones, and access to a Remote Expeditionary Area
Communications Hub (REACH) satellite communication kit. The 9.0 earthquake
that struck Japan on March 11, 2011, highlights the requirement for all posts to


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   73
     maintain a state of emergency preparedness readiness. Mission Tokyo’s first link back
     to the Department was via satellite phones.


     Review of the Department of State Interagency Coordination and
     Public Communication Regarding United States Citizen Victims in
     the Earthquake-Destroyed Hotel Montana in Haiti (ISP-I-10-72)
     Although the Hotel Montana victims’ families and Congressional staffers praised the
     Bureau of Consular Affairs’ American Citizens Services (ACS) personnel for their
     compassion and direct contact in the days following the January 12, 2010, earth-
     quake in Haiti, victims’ families were still frustrated by the lack of information avail-
     able on their missing loved ones. Hotel Montana families made the rounds of broad-
     cast morning news shows and were quoted extensively in the press pleading with the
     U.S. Government to “send more searchers, send the (U.S.) military” to Haiti to find
     their children. Additionally, the families were receiving information, not always accu-
     rate, from many different sources including unofficially from the site. OIG recom-
     mended that PA work with the regional and functional bureaus’ press and public
     affairs offices and the public affairs offices of other involved agencies throughout the
     Administration to document the lessons learned from the Haiti disaster in the public
     diplomacy crisis response strategy and incorporate the lessons learned into a revised
     Survival Guide for Public Affairs Officers. PA released a Crisis Communication Plan
     in December 2010 which outlines the roles and responsibilities for communicating to
     the public as well as providing a framework for internal bureau communication and
     ensuring that the Department’s message is consistent in public communication prod-
     ucts, events and activities while being responsive to changing events on the ground.


     Review of Standards, Training and Funding for Consular Country
     Coordinators (ISP-I-10-73)
     In recent inspections of large missions with constituent posts (Australia, Brazil, Italy,
     Mexico, Pakistan, Turkey, and the United Kingdom), consular inspections noted
     that the consular country coordinators often were uncertain of the appropriate role
     and function of the position. OIG recommended that FSI, in coordination with the
     Bureau of Consular Affairs, develop a training program for consular country coordi-
     nators. FSI is in the process of developing a workshop geared towards consular coun-
     try coordinators that can be offered on a semi-annual basis with the first workshop
     projected for scheduling in FY 2012.




74               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS

Report Number        Report Title                                                 Contractor           Type of Engagement

AUD/FM-11-01         Independent Accountant’s Report on the                       Kearney &     Agreed-Upon
                     Application of Agreed-Upon Procedures:                       Company, P.C. Procedures
                     Retirement, Health Benefits, and Life Insurance
                     Withholdings/Contributions and Supplemental
                     Semiannual Headcount Report Submitted to the
                     Office of Personnel Management
AUD/FM-11-02         Independent Auditor’s Report on the U.S.                     Kearney &     Financial Statement
                     Department of State 2010 and 2009 Special-                   Company, P.C.
                     Purpose Financial Statements
AUD/FM-11-03         Independent Auditor’s Report on the U.S.                     Kearney &     Financial Statement
                     Department of State 2010 and 2009 Financial                  Company, P.C.
                     Statements
AUD/FM-11-04         Management Letter Related to the Audit of                    Kearney &     Financial Statement
                     the U.S. Department of State 2010 Financial                  Company, P.C.
                     Statements
AUD/IT-11-07         Review of Department of State Information                    Williams,            Federal Information
                     Security Program                                             Adley &              Security Management
                                                                                  Company,             Act Review
                                                                                  LLP
AUD/SI-11-10         Audit of Sources and Uses of Global HIV/AIDS                 Clarke Leiper,       Performance Audit
                     Initiative Global Health and Child Survival                  PLLC
                     Funds Related to the President’s Emergency Plan
                     for AIDS Relief (PEPFAR) for FYs 2007 and
                     2008
AUD/CG-11-12         Audit of Funding Provided by the American           Cotton &                      Performance Audit
                     Recovery and Reinvestment Act for the Foreign       Company,
                     Service Institute National Foreign Affairs Training LLP
                     Center
AUD/CG-11-13         Audit of Department of State Compliance                      Kearney &     Performance Audit
                     With Federal Procurement Data System – Next                  Company, P.C.
                     Generation Reporting Requirements of the
                     American Recovery and Reinvestment Act




               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011             75
76   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 6: PEER REVIEWS
CONDUCTED BY OTHER OFFICES
OF INSPECTOR GENERAL


AUDITS
During this semiannual reporting period, the National Aeronautics and Space
Administration (NASA) OIG reviewed the system of quality control for OIG’s two
audit organizations—Office of Audits and MERO. Based on its review, NASA deter-
mined that the system of quality control for audit organizations, “although suitably
designed, was not consistently followed” by MERO. As a result of this review, OIG
received a peer review rating of pass with deficiencies.

The Department’s Deputy Inspector General, in responding to the NASA report,
stated that most of NASA’s recommendations “focused on MERO’s processes and
procedures and will result in OIG changing the GAGAS [generally accepted govern-
ment auditing standards] reports to assessment reports.” The Deputy Inspector
General noted, however, that as of October 14, 2010, the Department had “concurred
with all 10 of the recommendations cited in the three MERO reports included in the
peer review, and 9 of those recommendations have been fully implemented.”

The Deputy Inspector General also stated that he has taken or plans to take actions
in 2011 to ensure that OIG receives a pass with no deficiencies opinion on its next peer
review. Specifically, he directed, in 2009, that an internal quality control review be
conducted of one of MERO’s reports that identified “deficiencies in MERO’s system
of quality control,” and, in September 2010, he “immediately shifted responsibil-
ity for all GAGAS audits in the MERO region to the Office of Audits.” He further
directed that effective October 1, 2011, “[A]ll MERO activities and functions merge
within the Office of Audits.”

In closing, the Deputy Inspector General stated that he remained “committed to
maintaining ‘boots on the ground’ in contingency areas as long as necessary”; that
he would ensure that the merger of MERO into the Office of Audits is “seamless”;
and that “timely, accurate, and relevant reports . . . responsive to the needs of the
Congress and the Department” will still be provided regarding work in the MERO
region.


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   77
     INVESTIGATIONS
     The Office of Investigations did not undergo a Peer Review during the reporting
     period. The last Investigative Peer Review was conducted by the Nuclear Regulatory
     Commission, Office of Inspector General, and was completed on April 30, 2009.
     During that investigative Peer Review, the Office of Investigations was found to be
     in compliance with the President’s Council on Integrity and Efficiency/Executive
     Council on Integrity and Efficiency Quality Standards For Investigations and the
     Attorney General’s Guidelines. These safeguards and procedures provide reasonable
     assurance of conforming to professional standards in the conduct of investigations.




78              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
BROADCASTING
  BOARD OF
 GOVERNORS
AUDITS

Independent Auditor’s Report on the Broadcasting Board of
Governors 2010 and 2009 Financial Statements (AUD/IB-11-05)
An independent external auditor audited the Broadcasting Board of Governors
(BBG) annual financial statements as of, and for the years ended, September 30, 2010
and 2009. In the auditor’s opinion, the Consolidated Balance Sheets, Consolidated
Statements of Net Cost, Consolidated Statement of Changes in Net Position,
and Combined Statements of Budgetary Resources as of, and for the years ended,
September 30, 2010 and 2009, present fairly, in all material respects, BBG’s financial
position as of September 30, 2010 and 2009, and its net cost of operations, changes
in net position, and changes in budgetary resources for the years then ended, in
conformity with accounting principles generally accepted in the United States of
America.

The auditor found certain deficiencies in internal control that it considered signifi-
cant. Specifically, the significant deficiencies were in internal controls over the finan-
cial and accounting system, accounts payable, property, and unliquidated obligations.


Management Letter Related to the Audit of the Broadcasting Board
of Governors 2010 and 2009 Financial Statements (AUD/IB-11-06)
During the audit of BBG’s 2010 and 2009 financial statements, the independent
external auditor identified internal control weaknesses or instances of noncompliance
with selected provisions of applicable laws and regulations relating to government
purchase cards, information security, Fund Balance With Treasury, accounts receiv-
able, and Foreign Service national payroll. The external auditor recommended that
BBG take appropriate action to address these weaknesses.


Review of the Broadcasting Board of Governors Information
Security Program (AUD/IT/IB-11-08)
In response to the Federal Information Security Management Act of 2002, OIG
requested an independent public accountant to review BBG’s Information Security
Program to evaluate its progress in addressing FISMA information management
and information security program requirements. The review found that BBG had,
since the FY 2009 review, taken actions to improve management controls, includ-
ing realigning its information technology department to improve accountability and


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   81
     communication among personnel, increasing performance of risk assessments and
     developing security plans for its major information systems, and developing a strate-
     gic plan to address needed improvements in its information technology architecture.

     Overall, the independent public accountant found that BBG had developed an infor-
     mation security program. However, for BBG to improve and bring the program into
     compliance with applicable requirements, the independent public accountant made
     recommendations for BBG to address control weaknesses in the system inventory list,
     risk management framework, security configuration management, security awareness
     training, plans of action and milestones, remote access program, account and identity
     management, security assessments, and contingency planning.




82               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
INSPECTIONS

Inspection of International Broadcasting Bureau Sri Lanka
Transmitting Station (ISP-IB-11-01A)
The International Broadcasting Bureau Sri Lanka Transmitting Station is a key
provider of shortwave U.S. Government broadcasts to Afghanistan and Pakistan,
as well as across Asia, Central Asia, and East Africa. The transmitting station was
unaffected by the recent Sri Lankan civil war. The inspectors found the station well
managed and with a transmitter availability percentage averaging 99.86 percent.
Approximately 50 percent of its program budget is for electricity, and the initiatives
that the station manager pursued might reduce those costs as much as 30 percent.
OIG recommended that the International Broadcasting Bureau work with Embassy
Colombo to hold periodic town hall meetings at the station since its distance from
the embassy prevented its employees from attending those meetings and other events.


Inspection of Broadcasting Board of Governors Operations in
Indonesia (ISP-IB-11-25)
Indonesia is the world’s fourth most populated country and third largest democracy,
and its citizens are spread across thousands of islands. Nonetheless, with limited staff
and minimal resources, BBG establishments in Indonesia have done an excellent job
of reaching out to, and reporting on, this large and complex country. OIG recom-
mended that Voice of America implement a process to end the use of employees’
personal funds to temporarily pay agency costs at Voice of America offices with no
petty cash or cashier.


Inspection of Radio Free Asia (ISP-IB-11-29)
OIG found that Radio Free Asia’s (RFA) staff was dedicated to the company’s
mission and that staff morale and job satisfaction were high. Staff also gave high
marks to the president and senior management, who provided strong direction for the
organization; however, first- and second-level supervisors required additional leader-
ship training. OIG recommended that intraoffice communication, specifically among
the RFA’s language services and between media staffers and technical operations
employees, should be improved. The language services were also relying more on the
Internet, social media, and citizen journalists to reach their target audiences, and the
technical operations division was creative in marshaling its resources and in looking
for alternative ways of doing business and of ensuring cyber security, despite a serious


            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   83
     lack of resources. This lack of resources necessitated long hours and additional duties
     that may affect staff morale, cause work fatigue, and eventually affect the quality of
     work.


     Inspection of the Broadcasting Board of Governors Operations in
     Thailand (ISP-IB-11-33)
     The privatization process was under development to turn International Broadcasting
     Bureau Thailand Transmitting Station operations over to a third-party contractor
     and to coordinate station operations as part of a broader strategic partnership with
     the British Broadcasting Corporation to achieve long-term economies. In addi-
     tion, transmitter plant personnel had effected energy efficiency changes at the two
     Thailand transmitter sites and other International Broadcasting Bureau transmitting
     stations that were projected to save up to $1.2 million annually.


                      BEST PRACTICE: Saving Money through Engineering Energy
                      Efficiency

                      Issue: The operation of IBB transmitting stations is costly—the power costs for
                      operating high power transmitters is one of the largest budgeted expenses. IBB
                      wanted to achieve long-term savings at the IBB Thailand Transmitting Station.
                      Response: After experimenting with the amplitude modulation companding
                      (AMC) mode on its AMC capable transmitters, the locally employed staff at
                      the Thailand transmitting station began using this mode. They then modi­
                      fied other transmitters to be AMC capable, and subsequently provided support
                      to other IBB network transmitting stations to effect similar modifications on
                      their own transmitters.
                      Result: The savings in power costs across the entire IBB network have been
                      immediate, and could approach $1.2 million a year. Using AMC mode has been
                      so successful that IBB has mandated the use of AMC mode at all of its transmit­
                      ting facilities, wherever feasible. An additional result has been enhanced rela­
                      tions with the Royal Thai Government, which is now seeking the transmitting
                      station’s support in applying this same technology to achieve energy savings at
                      its own transmitting facilities. The AMC mode power savings also are enhanc­
                      ing BBG’s compliance with the Energy Policy Act of 2005 and the Energy
                      Independence and Security Act of 2007.




84               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
INVESTIGATIONS

EMPLOYEE MISCONDUCT
OIG conducted an investigation of an employee of one of BBG broadcast services
who posted material from two stories/interviews he conducted while working for
BBG on a private Web site for which he was subsequently paid a fee. When inter-
viewed, the employee admitted to his actions. On November 30, 2010, BBG issued
the employee a written reprimand for his actions. The letter will remain in his official
personnel folder for a period of 3 years. (C2010-039)




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   85
86   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 1: BROADCASTING
BOARD OF GOVERNORS
INVESTIGATIVE ACTIVITIES

      Preliminary Inquiries
       Opened                                                                                    0
       Closed                                                                                    0
      Investigations
       Opened                                                                                    0
       Closed                                                                                    1
       Pending (3/31/11)                                                                         0
      Criminal Actions
       Referrals for Prosecution                                                                 0
       Indictments/Informations                                                                  0
       Convictions                                                                               0
       Sentencings (Months Imprisonment)                                                         0
       Sentencings (Months Probation)                                                            0
       Declinations                                                                              0
      Civil Actions
       Civil Referrals                                                                           0
       Civil Judgments                                                                           0
       Civil Declinations                                                                        0
      Administrative Referrals
       Referrals for Personnel Action                                                            0
       Suitability Referrals to DS                                                               0
      Administrative Actions
       Removals                                                                                  0
       Suspensions                                                                               0
       Reprimands/Admonishments                                                                  1
       Debarment Actions                                                                         0
      Monetary Recoveries
       Criminal Fines/Recoveries                                                               $0
       Civil Recoveries                                                                        $0
       Administrative Recoveries                                                               $0
       Total Investigative Recoveries                                                          $0


    Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   87
88   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 2: BROADCASTING
BOARD OF GOVERNORS REPORTS
ISSUED


Report Number              Report Title

AUD/IB-11-05               Independent Auditor’s Report on the Broadcasting Board of Governors 2010
                           and 2009 Financial Statements
AUD/IB-11-06               Management Letter Related to the Audit of the Broadcasting Board of
                           Governors 2010 and 2009 Financial Statements
AUD/IT/IB-11-08            Review of the Broadcasting Board of Governors Information Security
                           Program (FISMA FY 2010)
ISP-IB-11-33               Inspection of Broadcasting Board of Governors’ Operations in Thailand

ISP-IB-11-29               Inspection Radio Free Asia

ISP-IB-11-25               Inspection of Broadcasting Board of Governors’ Operations in Indonesia

ISP-IB/S-11-01A            Classified Annex to the Inspection of International Broadcasting Bureau Sri
                           Lanka Transmitting Station
ISP-IB-11-01A              Inspection of International Broadcasting Bureau Sri Lanka Transmitting
                           Station




           Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   89
90   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES


TABLE 1: INSPECTOR GENERAL ISSUED REPORTS WITH
QUESTIONED COSTS

                                                                                Questioned                Unsupported
                                                           Number
Type of Report                                                                Costs (Dollars             Costs (Dollars
                                                          of Reports
                                                                              in Thousands)              in Thousands)

 A.	 For which no management decision                           0                     $0                        $0
     has been made by the commencement
     of the reporting period

 B.	 Which were issued during the reporting                     0                     $0                        $0
     period

     Subtotals (A + B)                                          0                     $0                        $0

 C.	 For which a management decision
     was made during the reporting period
     based on formal administrative or
     judicial appeal

     (i) dollar value of disallowed costs                       0                     $0                        $0
     (ii) dollar value of costs not disallowed                  0                     $0                        $0


 D.	 For which no management decsion has                        0                     $0                        $0
     been made by the end of the reporting
     period

     Reports for which no management                            0                     $0                        $0
     decision was made within 6 months of
     issuance




            Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011             91
     TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                                   Number of                    Dollars
     Type of Report
                                                                                    Reports                 (in Thousands)

      A.	 For which no management decision has been made                                  0                          $0
          by the commencement of the reporting period
      B.	 Which were issued during the reporting period                                   0                          $0


          Subtotals (A + B)                                                               0                          $0

      C.	 For which a management decision was made
          during the reporting period

          (i) dollar value of recommendations that were                                   0                          $0
          agreed to by management
              -	 based on proposed management action
              -	 based on proposed legislative action

          (ii) dollar value of recommendations that were not                              0                          $0
          agreed to by management


      D.	 For which no management decision has been made                                  0                          $0
          by the end of the reporting period

          Reports for which no management decision was                                    0                          $0
          made within 6 months of issuance




92               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 4: RESOLUTION
OF REPORTS AND
RECOMMENDATIONS


SIGNIFICANT AUDIT RECOMMENDATIONS PENDING FINAL
ACTION

Report               Rec.        Report Title                                                                First
Number               No.         Recommendation Summary                                                      Reported
AUD/HCI-10-24                    Audit of Broadcasting Board of Governors Overseas                             8/10
                                 Nonexpendable Personal Property
                        1        OIG recommended that BBG, Office of Engineering
                                 and Technical Services, in conjunction with the Chief
                                 Financial Officer, identify the system and procedural
                                 modifications and corrections required to meet the
                                 requirements for reporting on capitalized nonexpend-
                                 able personal property for the annual financial state-
                                 ments and that it implement the appropriate modifica-
                                 tions and corrections no later than September 30, 2010.
                        3        OIG recommended that BBG, Office of Engineering
                                 and Technical Services, in conjunction with the Chief
                                 Financial Officer, review all capitalized nonexpend-
                                 able personal property identified; assign salvage values
                                 for each item as appropriate; and adjust the annual
                                 depreciation expense calculations, accumulated
                                 depreciation expenses, and net book values for these
                                 items in the Property Inventory Processing System
                                 and the Chief Financial Officer’s capitalized property
                                 spreadsheet as appropriate.
                        5        OIG recommended that BBG, Office of Engineering
                                 and Technical Services, in conjunction with the Chief
                                 Financial Officer, develop and implement policies and
                                 procedures to ensure that personnel assign appropriate
                                 salvage values to all nonexpendable personal property
                                 before annual depreciation rates are calculated and
                                 applied.




         Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011              93
      Report                 Rec.        Report Title                                                                First
      Number                 No.         Recommendation Summary                                                      Reported

                                9        OIG recommended that BBG, Office of Engineering
                                         and Technical Services, direct all accountable prop-
                                         erty officers to conduct a complete physical inventory
                                         of all nonexpendable personal property assigned to or
                                         located within their respective organizational units as
                                         soon as training has been completed but no later than
                                         March 31, 2011.



     MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
     RECOMMENDATIONS


     Inspection of the Broadcasting Board of Governors’ Middle East
     Broadcasting Networks, Inc. (ISP-IB-10-28)
     To address consistent reports of poor communication in the news operation noted
     during the inspection, the vice president for news holds weekly editorial and plan-
     ning meetings, and the new managing editor schedules daily meetings with news
     staff to discuss relevant issues. Given the centrality of the vice president’s position,
     OIG recommended that the Middle East Broadcasting Networks, Inc. delineate the
     authority of the vice president for news and implement a procedure to verify that the
     vice president exercises his authority decisively and transparently. BBG, in response to
     the recommendation selected a managing editor for Radio Sawa’s day-to-day editorial
     decision making process and to establish physical separation of the vice president for
     news position from the Radio Sawa news operations.




94               Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
APPENDIX 5: AUDITS PERFORMED
BY CONTRACTORS


Report Number       Report Title                                              Contractor             Type of Engagement

AUD/IB-11-05        Independent Auditor’s Report on the                       Clarke Leiper,         Financial Statement
                    Broadcasting Board of Governors 2010 and                  PLLC
                    2009 Financial Statements
AUD/IB-11-06        Management Letter Related to the Audit of the             Clarke Leiper,         Financial Statement
                    Broadcasting Board of Governors 2010 and                  PLLC
                    2009 Financial Statements
AUD/IT/IB-11-08 Review of the Broadcasting Board of Governors                 Williams, Adley Federal Information
                Information Security Program                                  & Company,      Security Management
                                                                              LLP             Act Review




             Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011             95
96   Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
ABBREVIATIONS

Abbreviation             Full Name
A/GIS/IPS                Bureau of Administration’s Office of Government Information Services’
                         Office of Information Programs and Services
ACS                      American Citizens Services
AMC                      amplitude modulation companding
BBG                      Broadcasting Board of Governors
CEPA                     Crisis and Emergency Planning Application
CLASS                    Department’s Consular Lookout and Support System
CMAT                     Consular Management Assistance Team
COR                      contracting officer’s representative
Department               U.S. Department of State
DCM                      deputy chief of mission
DS                       Bureau of Diplomatic Security
DS/C                     Bureau of Diplomatic Security, Countermeasures Directorate
ECA                      Educational and Cultural Affairs
ELO                      entry level officers
EUR                      Bureau of European and Eurasian Affairs
FAR                      Federal Acquisition Regulation
FAST                     first and second tour
FISMA                    Federal Information Security Management Act of 2002
FOIA                     Freedom of Information Act
FPDS-NG                  Federal Procurement Data System – Next Generation
FSI                      Foreign Service Institute
GHAI                     Global HIV/AIDS Initiative
GHCS                     Global Health and Child Survival
GHI                      Global Health Initiative
HR                       Bureau of Human Resources
IBB                      International Broadcasting Bureau
ICE                      U.S. Immigration and Customs Enforcement
ICRC                     International Committee of the Red Cross
IDP                      internally displaced persons
ILO                      International Labor Organization
INL                      Bureau of International Narcotics and Law Enforcement Affairs




             Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011   97
     Abbreviation           Full Name
     IRM                    Bureau of Information Resource Management
     ISSO                   Information Systems Security Officer
     KCP                    Kabul City Power
     MERO                   Middle East Regional Office
     MOA                    memorandum of agreement
     MSRP                   Mission Strategic and Resource Plan
     NASA                   National Aeronautics and Space Administration
     NEC                    new embassy compound
     OBO                    Bureau of Overseas Buildings Operations
     OGAC                   Office of the U.S. Global Aids Coordinator
     OIG                    Office of Inspector General
     ONDCP                  Office of National Drug Control Policy
     OPM                    Office of Personnel Management
     OPR                    Office of Real Property Management
     PA                     Bureau of Public Affairs
     PASF                   Palestinian Authority security forces
     PDA                    Personal data assistant
     PEPFAR                 President’s Emergency Plan for Aids Relief
     PIERS                  Passport Information Electronic Records System
     POA&M                  Plan of Action and Milestones
     PRM                    Bureau of Population, Refugees and Migration
     QASP                   quality assurance surveillance plan
     QDDR                   Quadrennial Diplomacy and Development Review
     R&R                    rest and recuperation
     RCO                    Regional Consular Officer
     REACH                  Remote Expeditionary Area Communications Hub
     Recovery Act           American Recovery and Reinvestment Act
     RFA                    Radio Free Asia
     RPSO                   Regional Procurement Support Office
     TIP                    trafficking in persons
     TVPA                   Trafficking Victims Protection Act of 2000
     UAE                    United Arab Emirates
     UNHCR                  United Nations High Commissioner for Refugees
     US                     United States of America
     USCC                   U.S. Security Coordinator




98              Office of Inspector General Semiannual Report to the Congress - October 1, 2010 to March 31, 2011
                   Index of Reporting Requirements
          Inspector General Act of 1978, as amended

Requirement            Subject                                                     Page Number(s)

Section 4(a)(2)        Review of legislation and regulations                             12

Section 5(a)(1)        Summary of Significant problems, abuses, and deficiencies         3-9

Section 5(a)(2)        Significant recommendations for corrective action             65-72, 95-96

Section 5(a)(3)        Prior significant recommendations unimplemented               65-72, 95-96

Section 5(a)(4)        Matters referred to prosecutive authorities                    49-53, 87

Section 5(a)(5)        Information or assistance refused                                none

Section 5(a)(6)        List of reports issued                                         57-59, 91

Section 5(a)(7)        Summaries of significant reports                              17-47, 83-86

Section 5(a)(8)        Reports – questioned costs                                       61, 93

Section 5(a)(9)        Reports – funds to be put to better use                          62, 94

Section 5(a)(10)       Prior reports unresolved                                       70-72, 96

Section 5(a)(11)       Significant revised management decisions                         none

Section 5(a)(12)       Significant management decisions with which OIG disagreed        none

Section 5(a)(14)       Peer review results                                              79-80

Section 5(a)(15)(16)   Status of peer review recommendations                            79-80
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
   United States Department of State
and the Broadcasting Board of Governors
       Office of Inspector General
